<html>
<title> - U.S. RESPONSE TO THE COUP IN BURMA</title>
<body><pre>[Senate Hearing 117-16]
[From the U.S. Government Publishing Office]





                                                         S. Hrg. 117-16
 
                          U.S. RESPONSE TO THE 
                             COUP IN BURMA

=======================================================================

                                HEARING


                               BEFORE THE

                       SUBCOMMITTEE ON EAST ASIA,
                     THE PACIFIC, AND INTERNATIONAL
                          CYBERSECURITY POLICY


                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                    ONE HUNDRED SEVENTEENTH CONGRESS



                             FIRST SESSION



                               __________

                             MARCH 25, 2021

                               __________



       Printed for the use of the Committee on Foreign Relations
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        


                  Available via http://www.govinfo.gov
                  
                  
                           ______                       


             U.S. GOVERNMENT PUBLISHING OFFICE 
44-721 PDF           WASHINGTON : 2021                  
                  


                 COMMITTEE ON FOREIGN RELATIONS        

             ROBERT MENENDEZ, New Jersey, Chairman        
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
JEANNE SHAHEEN, New Hampshire        MARCO RUBIO, Florida
CHRISTOPHER A. COONS, Delaware       RON JOHNSON, Wisconsin
CHRISTOPHER MURPHY, Connecticut      MITT ROMNEY, Utah
TIM KAINE, Virginia                  ROB PORTMAN, Ohio
EDWARD J. MARKEY, Massachusetts      RAND PAUL, Kentucky
JEFF MERKLEY, Oregon                 TODD YOUNG, Indiana
CORY A. BOOKER, New Jersey           JOHN BARRASSO, Wyoming
BRIAN SCHATZ, Hawaii                 TED CRUZ, Texas
CHRIS VAN HOLLEN, Maryland           MIKE ROUNDS, South Dakota
                                     BILL HAGERTY, Tennessee
                 Jessica Lewis, Staff Director        
        Christopher M. Socha, Republican Staff Director        
                    John Dutton, Chief Clerk        



            SUBCOMMITTEE ON EAST ASIA, THE PACIFIC,        
             AND INTERNATIONAL CYBERSECURITY POLICY        

           EDWARD J. MARKEY, Massachusetts, Chairman        
CHRISTOPHER A. COONS, Delaware       MITT ROMNEY, Utah
CHRISTOPHER MURPHY, Connecticut      TED CRUZ, Texas
BRIAN SCHATZ, Hawaii                 RON JOHNSON, Wisconsin
JEFF MERKLEY, Oregon                 MIKE ROUNDS, South Dakota
                                     BILL HAGERTY, Tennessee

                              (ii)        

  


                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page

Markey, Hon. Edward J., U.S. Senator From Massachusetts..........     1

    Prepared Statement...........................................     3

Romney, Hon. Mitt, U.S. Senator From Utah........................     4

Keshap, Ambassador Atul, Principal Deputy Assistant Secretary of 
  State, Bureau of East Asian and Pacific Affairs, U.S. 
  Department of State, Washington, DC............................     5
    Prepared Statement...........................................     7

Busby, Hon. Scott, Acting Principal Deputy Assistant Secretary of 
  State, Bureau of Democracy, Human Rights, and Labor, U.S. 
  Department of State, Washington, DC............................     8
    Prepared Statement...........................................    10

Andrews, Hon. Tom, U.N. Special Rapporteur on the Situation of 
  Human Rights in Myanmar........................................    22
    Prepared Statement...........................................    24

Currie, Hon. Kelley, Former U.S. Ambassador-at-Large for Global 
  Women's Issues.................................................    26
    Prepared Statement...........................................    28

                                 (iii)

  


                  U.S. RESPONSE TO THE COUP IN BURMA

                              ----------                              


                       THURSDAY, MARCH 25, 2021

                           U.S. Senate,    
Subcommittee on East Asia, The Pacific, and
                International Cybersecurity Policy,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:02 a.m. via 
videoconference, Hon. Edward J. Markey, Chairman of the 
Subcommittee, presiding.
    Present: Senators Markey [presiding], Schatz, Merkley, 
Romney, Johnson, Rounds, and Hagerty.

          OPENING STATEMENT OF HON. EDWARD J. MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Welcome everyone to the first hearing of 
the Subcommittee on East Asia, the Pacific, and International 
Cybersecurity Policy in the 117th Congress.
    I want to extend a special thanks to Senator Mitt Romney 
for taking on the ranking member role of this subcommittee. He 
and I have had a long working relationship going back to the 
state of Massachusetts, and I am really looking forward to 
partnering with him over the next couple of years.
    Senator Cory Gardner and I had a great working relationship 
on this subcommittee during our 4-year partnership, and I look 
forward to working with you, Senator Romney, as we take on the 
challenges and the opportunities in this region.
    As we chart our course for subcommittee business, I intend 
to take on the fundamental issues of our time, including 
climate change, the proliferation of nuclear weapons, the 
undermining of democracy and human rights, and the 
authoritarian challenge posed by China to the United States, 
the Indo-Pacific, and the world.
    I intend to bolster our support for United States' allies 
and find avenues for greater cooperation and U.S. investment in 
the region so that we can face this set of issues with a 
bipartisan approach, because we are, ultimately, even in an 
area like this in our first hearing, facing an increasingly 
aggressive posture from Beijing as we are with so many other 
issues.
    We will reinforce and build on what we accomplished with 
the landmark Asia Reassurance Initiative Act, introduced and 
passed into law by me and Senator Gardner in 2018, and I look 
forward to partnering with Senator Romney and the rest of our 
colleagues on the subcommittee as we tackle these challenges.
    Today, we turn our focus to one of the greatest crises in 
the Indo-Pacific: The situation in Burma. We will discuss the 
United States' response to the coup carried out by the Burmese 
military against the democratically-elected government on 
February 1st of this year.
    It is my hope that we can coalesce around further concrete 
actions the United States Government can take to help alleviate 
the suffering of the people of Burma and demonstrate to the 
Burmese military leadership that this brazen and violent 
assault on democracy will not succeed.
    The coup carried out by the Burmese military has sparked 
widespread civilian outrage inside Burma, leading to sweeping 
peaceful protests and strikes. The military, also known as the 
Tatmadaw, has met these peaceful civilians with extreme 
violence and inhumanity, killing an estimated 250 people since 
February 1st and detaining thousands more.
    They have specifically targeted journalists and shut down 
internet communications in an attempt to keep their violations 
from the world. In that, they have not succeeded. The brutality 
of the military comes in sharp contrast to the bravery of 
protesters like 19-year-old Kial Sin, nicknamed Angel. She led 
fellow peaceful demonstrators in a chant of unity when police 
forces gunned her down.
    Her final act on this planet was one of selfless service, 
opening a water pipe so her fellow protesters who had just been 
tear gassed could wash their eyes, and asking a friend to duck 
and cover as shots rang out.
    The Biden administration's response to the coup was swift 
and I applaud their attention to this crisis. President Biden 
signed an executive order on February 10th allowing the 
Department of State and Treasury to impose targeted sanctions 
against the military leaders and their business holdings, and 
have announced additional designations this week, including an 
announcement this morning that they will be targeting two of 
the military's largest holdings, the Myanmar Economic 
Corporation and its Economic Holdings Limited corporation. This 
is a big step, and I thank the administration for taking it.
    Other like-minded countries have imposed targeted 
sanctions, including the European Union. But more must be done 
to deny the army its economic lifeline and to deny it weapons 
of war. The United States should play a leading role in urging 
our partners and allies, including members of ASEAN, to take 
steps to cut off funding for the military, and we should work 
to ensure that American and other foreign companies are not 
engaged in activities that benefit the army.
    Unfortunately, the recent brutality of the army is all too 
familiar. In 2017, many of the same military leaders who 
orchestrated the February coup oversaw atrocities against the 
Rohingya ethnic minority with human rights violations ranging 
from systemic gang rape and extrajudicial killings to forced 
displacement of more than 1 million Rohingya.
    United Nations investigators have characterized this 
systemic campaign to wipe out the Rohingya in Burma by its 
rightful name, genocide. I have repeatedly called on the United 
States Government to do the same.
    I want to thank all of you for being here today for this 
important hearing, and I look forward to the witness testimony.
    [The prepared statement of Senator Edward J. Markey 
follows:]

             Prepared Statement of Senator Edward J. Markey

    Welcome everyone to the first hearing of the Subcommittee on East 
Asia, the Pacific, and International Cybersecurity Policy in the 117th 
Congress. I want to extend a special thanks to Senator Romney for 
taking on the Ranking Member role of this Subcommittee. Senator Corey 
Gardner and I had a great working relationship on this Subcommittee 
during our 4-year partnership, and I look forward to working with you, 
Senator Romney, as we take on the challenges and opportunities in the 
region.
    As we chart our course for Subcommittee business I intend to take 
on the fundamental issues of our time--including climate change, the 
proliferation of nuclear weapons, the undermining of democracy and 
human rights, and the authoritarian challenge posed by China to the 
United States, the Indo-Pacific, and the world. I intend to bolster our 
support for United States' allies, and find avenues for greater 
cooperation and U.S. investment in the region as we face an 
increasingly aggressive posture from Beijing.
    We will reinforce and build on what we accomplished with the 
landmark Asia Reassurance Initiative Act, introduced and passed into 
law by me and Senator Gardner in 2018. I look forward to partnering 
with Senator Romney and the rest of our colleagues on the Subcommittee 
as we tackle these challenges.
    Today, we turn our focus to one of the greatest crises in the Indo-
Pacific--the situation in Burma-- and will discuss the United States' 
response to the coup carried out by the Burmese military against the 
democratically elected government on February 1st of this year.
    It is my hope that we can coalesce around further concrete actions 
the United States Government can take to help alleviate the suffering 
of the people of Burma, and demonstrate to the Burmese military 
leadership that this brazen and violent assault on democracy will not 
succeed.
    The coup carried out by the Burmese military has sparked widespread 
civilian outrage inside Burma, leading to sweeping peaceful protests 
and strikes. The military, also known as the Tatmadaw (taht-maw-daw) 
has met these peaceful civilians with extreme violence and inhumanity--
killing an estimated 250 people since February 1st, and detaining 
thousands more. They've specifically targeted journalists and shut down 
internet communications in an attempt to keep their violations from the 
world. In that they have not succeeded.
    The brutality of the military comes in sharp contrast to the 
bravery of protesters like 19-year-old, Kyal Sin, nicknamed ``Angel.'' 
She led fellow peaceful demonstrators in a chant of unity when police 
forces gunned her down. Her final act on this planet was one of 
selfless service--opening a water-pipe so her fellow protesters who had 
just been tear-gassed could wash their eyes and asking a friend to duck 
and cover as shots rang out.
    The Biden administration's response to the coup was swift and I 
applaud their attention to this crisis. President Biden signed an 
Executive Order on February 10th allowing the Departments of State and 
Treasury to impose targeted sanctions against the military leaders and 
their business holdings, and have announced additional designations 
this week, including an announcement this morning that they will be 
targeting two of the military's largest holdings, the Myanmar Economic 
Corporation (MEC) and Myanmar Economic Holdings Limited (MEHL). This is 
a big step and I thank the Administration for taking it.
    Other like-minded countries have imposed targeted sanctions, 
including the European Union. But more must be done to deny the 
Tatmadaw its economic lifeline and to deny it the weapons of war.
    The U.S. should play a leading role in urging our partners and 
allies, including members of ASEAN (Ah-see-ahn) to take steps to cut 
off funding for the military, and we should work to ensure that 
American and other foreign companies are not engaged in activities that 
benefit the Tatmadaw.
    Unfortunately, the recent brutality of the Tatmadaw is all too 
familiar. In 2017 many of the same military leaders who orchestrated 
the February coup oversaw atrocities against the Rohingya ethnic 
minority, with human rights violations ranging from systemic gang rape 
and extrajudicial killings, to forced displacement of more than one 
million Rohingya. United Nations' investigators have characterized the 
systematic campaign to wipe out the Rohingya in Burma by its rightful 
name: genocide. I have repeatedly called on the United States 
Government to do the same.
    I want to thank you all again for being here today for this 
important hearing and I look forward to the witness testimony.

    I would now like to turn and recognize the ranking member, 
Senator Romney, for his opening statement.
    [No response.]
    Senator Schatz. Senator Romney, you are on mute.

                STATEMENT OF HON. MITT ROMNEY, 
                     U.S. SENATOR FROM UTAH

    Senator Romney. Thank you. I want to thank Chairman Markey 
for convening this hearing and for inviting me to participate.
    This first hearing of the subcommittee on the United States 
policy responses towards Burma comes in the light of the recent 
military coup against the democratically-elected government, 
and I want to recognize our four witnesses who have graciously 
agreed to join us today.
    I want to thank each of you for your service and we look 
forward to hearing from you.
    In recent years, the Burmese military conducted a campaign 
of violence against the Rohingya people, murdering thousands, 
committing widespread sexual violence, destroying homes. More 
than three-quarters of a million Rohingya have fled in the last 
5 years to live in refugee camps. Some 3,300 were murdered.
    On February 1st of this year, as you know, Burma's military 
leaders directed a coup, removed the government that had been 
democratically-elected in November 2020. They have since killed 
260 people and detained 2,200 citizens, including some 750 
students.
    In response, the Biden administration has imposed targeted 
sanctions against Burma's military leaders, including sanctions 
just announced today, and it has pledged to support Burmese 
civil society and humanitarian efforts.
    Of course, the political situation in Burma is reaching a 
boiling point. People are protesting. The opposition has been 
silenced.
    The military junta seems set on escalating the situation 
further, and, of course, there is risk of more murders, more 
refugees, and even civil conflict and the risk of all these 
things grows by the day.
    The United States stands with the people of Burma and their 
fight for democracy and freedom, and we condemn the violence 
against them.
    But we must also lead an international effort to expand and 
strengthen the sanctions and the embargo, and we must call upon 
China to join this effort or to suffer the public exposure of 
callous disregard for the plight of humanity.
    I look forward today to hearing from the witnesses on the 
current conditions in Burma, including the risks of the 
conflict's escalation, China's role in this crisis, and what 
steps the United States can take from this point forward to 
support the people of Burma.
    Thank you, Mr. Chairman. With that, I turn back to you.
    Senator Markey. Thank you, Senator Romney. And now we will 
turn to our panel.
    Our first witness is Ambassador Atul Keshap, who is a 
career senior Foreign Service officer serving as the Principal 
Deputy Assistant Secretary of State for the Bureau of East 
Asian and Pacific Affairs.
    Throughout his 25-year career, the Ambassador has served 
around the world. He previously served as Deputy Assistant 
Secretary of State for South Asia as the U.S. senior official 
for Asia Pacific Economic Cooperation.
    Prior to his current assignment, he served at the 
Department of Defense as the National Defense University's Vice 
Chancellor.
    We welcome you, Ambassador, and whenever you feel 
comfortable, please begin.

STATEMENT OF AMBASSADOR ATUL KESHAP, PRINCIPAL DEPUTY ASSISTANT 
 SECRETARY OF STATE, BUREAU OF EAST ASIAN AND PACIFIC AFFAIRS, 
            U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Keshap. Thank you kindly, Senator. I just want 
to make sure everybody can hear me and see me.
    Okay, I am seeing nods. Fantastic.
    Mr. Chairman, Ranking Member, Senator Romney, members of 
the committee, thank you very much for your time and attention 
today, and I am grateful to you for the opportunity to speak 
about the very tragic and deeply regrettable events in Burma as 
a result of the military coup.
    I also want to thank you, Mr. Chair, and the members of 
this committee for their steadfast support in this regard and 
in many other things. I agree entirely with you, Mr. Chair, 
that the United States should play a leading role in responding 
to this tragedy and this coup.
    The United States, under the Biden/Harris administration, 
has condemned in the strongest possible terms the military coup 
in Burma, the horrific violence against protesters, and the 
ongoing detentions of State Councilor Aung San Suu Kyi, 
President Win Myint, and other democratically-elected leaders 
as well as more than 2,000 civil society actors.
    We denounced this takeover, which rejects the will of the 
people of Burma as expressed in November 2020 elections and 
worsens pre-existing crises, including the ethnic cleansing of 
Rohingya.
    For the past 8 weeks the people of Burma have taken to the 
streets to protest peacefully and voice their aspirations for a 
return to democracy.
    We have seen civil servants and medical personnel, Buddhist 
monks and Catholic nuns, 88 Generation activists and young 
students, trade union leaders, farmers, and ethnic community 
leaders all uniting in Burma's largest street protests since 
the 2007 Saffron Revolution and the largest civil disobedience 
movement since the 1988 uprising.
    We have seen and witnessed their enormous bravery and their 
enormous sacrifice in demanding a return to civilian rule. We 
have also seen, Mr. Chair, the regime's brutal response.
    Prior to the coup, military leaders had claimed widespread 
fraud in a meager attempt, a meager attempt, to mask this power 
grab in some sort of constitutional legitimacy.
    Since then, Burma security forces have intensified their 
violent repression, killing at least 275 people and injuring 
hundreds of others. We utterly condemn these horrific attacks.
    Since February 1, the United States has taken swift action 
to promote accountability for the military regime and support 
the people of Burma in their efforts to reestablish and 
safeguard their democracy.
    First, we have worked to galvanize the international 
community to exert diplomatic pressure through two G-7 
statements, two United Nations Security Council statements, and 
many joint and individual statements from partners and allies. 
We have signaled to the regime that its actions have 
consequences.
    We have conveyed to military leaders that they must restore 
the democratically-elected government, cease attacks on 
peaceful protesters, and release all of those unjustly 
detained.
    We are working to maintain the broadest coalition of 
partners, including ASEAN members.
    Second, we have taken strong actions to promote 
accountability. President Biden announced February 10 an 
executive order that authorizes targeted sanctions in 
connection with the coup.
    Since then, we have sanctioned 14 current and former 
military leaders, two military units, and three military-
controlled entities. We also sanctioned Commander-in-Chief Min 
Aung Hlaing's two adult children and six entities that they 
control.
    And just today, as you referenced, Mr. Chair, we imposed 
sanctions on the two largest military-owned conglomerates, 
Myanmar Economic Corporation, MEC, and Myanmar Economic 
Holdings Limited, MEHL, which will directly target the junta's 
revenue streams and personal fortunes, and demonstrates that we 
will continue to impose costs until the junta removes its 
stranglehold on democracy.
    Third, we are working harder than ever to support the 
people of Burma through temporary protected status. We are also 
expanding support for Burmese civil society, and we will 
continue to engage with the committee representing the Union 
Parliament, CRPH, the National League for Democracy, ethnic 
party representatives, civil society representatives, and many 
others as they work to restore their democracy.
    We thank the Congress for enabling the United States to be 
a global leader in responding to the Rohingya crisis. The coup 
does not change our commitment to those populations.
    Fourth, I want to commend our embassy team in Rangoon and 
Ambassador Tom Vajda, who have been performing heroically to 
keep personnel, their dependents, and American citizens 
informed and safe, including supporting departures of 
Americans. We are continually assessing the security situation.
    Finally, Mr. Chair, permit me to say that this is not the 
Burma of the eighties, nineties, or 2000s. A broad and 
impressive coalition of civil society actors of all ages, 
ethnicities, faiths, and regions have united and are pushing 
back to restore democratic governance.
    The people have made their voices heard. They will not 
abide this takeover. To them, I say, ``We hear your voices.''
    Thank you, Mr. Chair.
    [The prepared statement of Ambassador Keshap follows:]

              Prepared Statement of Ambassador Atul Keshap

    Mr. Chairman, Ranking Member, Members of the Committee.
    Thank you for the opportunity to be here today. It is my honor to 
speak with you about recent events in Burma, the State Department's 
response, and our efforts to ensure the safety of our personnel and 
American citizens.
    The United States has condemned in the strongest possible terms the 
military coup in Burma on February 1, the horrific and lethal violence 
against protestors, and the ongoing detentions of State Counsellor Aung 
San Suu Kyi, President Win Myint, and other democratically-elected 
government leaders, as well as more than 2,000 civil society actors. We 
denounced this takeover, which rejects the will of the people of Burma 
as expressed in their November 2020 elections, and worsens pre-existing 
crises, including the ethnic cleansing of Rohingya and the nearly one 
million Rohingya refugees in Bangladesh.
    For the past 8 weeks, the people of Burma have taken to the streets 
to protest peacefully and voice their aspirations for a return to 
democracy and rule of law. We have seen civil servants and medical 
personnel, Buddhist monks and Catholic nuns, 88 Generation activists 
and young students, trade union leaders, farmers, and ethnic community 
leaders--all uniting in Burma's largest street protests since the 2007 
Saffron Revolution, and largest civil disobedience movement since the 
1988 democracy uprising. We have seen enormous bravery and enormous 
sacrifice.
    We have also seen the regime's brutal response in an ongoing 
attempt to overturn the results of the November election. Prior to the 
coup, military leaders had claimed widespread fraud in a meager attempt 
to mask this power grab in some sort of constitutional legitimacy. 
Since then, Burma's security forces--at the behest of military 
leaders--have intensified their violent repression, killing at least 
275 people since the coup and injuring hundreds of others. We condemn 
these horrific attacks. We also condemn the junta's attempts to block 
access to information.
    Since February 1, the United States has taken swift action to do 
two things: promote accountability for the military regime and support 
the people of Burma in their efforts to reestablish and safeguard their 
democracy. We have done this through a whole-of-government response 
that includes close coordination with international partners.
    First, we have worked to galvanize the international community to 
condemn this coup and exert diplomatic pressure. Through two G7 
statements, two U.N. Security Council statements, and many joint and 
individual statements from partners and allies, we have signaled to the 
regime that its actions have consequences. In public and private 
messaging, we have conveyed to military leaders that they must restore 
the democratically-elected government, cease attacks on peaceful 
protesters, release all those unjustly detained, and respect the 
outcome of the 2020 elections. We are working to maintain the broadest 
coalition of partners, including ASEAN members.
    Second, we have quickly adjusted our diplomatic and assistance 
responses, and taken strong actions to promote accountability. 
President Biden announced February 10 an executive order that 
authorizes targeted sanctions in connection with the coup. Since then, 
we have sanctioned 14 current and former military leaders, two military 
units responsible for related violence, and three military-controlled 
entities in the extractives sector. We also sanctioned Commander-in-
Chief Min Aung Hlaing's two adult children and six entities they 
control.
    In addition, we have strengthened our export control posture 
towards Burma to ensure the junta cannot benefit from sensitive U.S. 
goods or services, including by adding Burma to the Military End User 
List and adding the Ministries of Defense and Home Affairs, as well as 
Myanmar Economic Corporation (MEC) and Myanmar Economic Holdings 
Limited (MEHL), to the Entity List. And, of course, we continue robust 
enforcement of our longstanding arms embargo.
    While the military coup triggered a statutory restriction on 
foreign assistance to the Government of Burma, only a small fraction of 
U.S. assistance before the coup benefited the government, instead 
supporting local organizations, civil society, democracy promotion, and 
life-saving healthcare and humanitarian relief. Nevertheless, we have 
undertaken an interagency review of our assistance, and de-scoped 
certain U.S. assistance away from work that engaged the Government and 
toward work directly benefiting the people of Burma. Our support to 
civil society is more important than ever.
    Third, we are working harder than ever to support the people of 
Burma wherever they are. We provided Temporary Protected Status to 
individuals from Burma in the United States, as we recognize the 
catastrophe caused by the coup prevents them from returning home 
safely. We are also expanding support for Burmese civil society 
leaders, activists, and journalists under duress. And we will continue 
to support and engage with the Committee Representing the Union 
Parliament (CRPH), National League for Democracy (NLD) leaders, ethnic 
party representatives and organizations, and others supporting the 
restoration of democracy, as they work to unify and maintain their 
movement. Any solution to this crisis must include them.
    In addition, we again thank Congress for enabling the United States 
to be the global leader in responding to the Rohingya crisis. The coup 
does not change our commitment to supporting justice and accountability 
for atrocities against the people of Burma and to providing 
humanitarian assistance for vulnerable populations, including Rohingya.
    Fourth, our Embassy team in Rangoon and Ambassador Tom Vajda have 
been performing heroically to keep personnel, their dependents, and 
U.S. citizens informed and safe, including by supporting the departure 
of American citizens. We are continually assessing the security 
situation to determine if a change in posture is needed.
    Finally, this is not the Burma of the eighties, nineties, or even 
2000s. A broad and impressive coalition of civil society actors of all 
ages, ethnicities, faiths, and regions have united and are pushing back 
on this coup. Though Burma's transition to democracy was far from 
complete before February 1, the people of Burma each day are showing 
their overwhelming preference for a civilian, democratic government.
    I have been struck, in particular, by how protesters have adopted 
the three-finger salute from The Hunger Games--a popular American book 
and movie series, in which the people rise up against repressive, 
violent rule. No doubt most of the generals have missed this reference, 
in their focus on a misguided myth of Burma's military serving as the 
savior of the people. To the contrary, young people across Burma are 
looking forward, uniting like never before in a struggle to restore 
democratic governance. The people have made their voices heard. They 
will not abide this takeover. To them I say: we hear your voices. We 
and others must continue to act.
    The people of Burma yearn to be part of the free and open global 
community, and we will continue to work with our partners in Congress 
to thwart the military's efforts to return the country to its isolated 
and repressive past. Thank you.

    Senator Markey. Thank you so much. Thank you for your 
testimony. Much appreciated.
    Our second witness on the first panel is Mr. Scott Busby, 
who is currently serving as the acting Principal Deputy 
Assistant Secretary of State in the Bureau of Democracy, Human 
Rights, and Labor at the Department of State, where in addition 
to the Bureau's budget and human resources, he oversees the 
Bureau's work on Africa, East Asia, and the Pacific, the 
Western Hemisphere, and the human rights of the LGBTQI persons, 
business, and human rights and human rights-based sanctions.
    We thank you so much, Mr. Busby, for being with us. 
Whenever you are ready, please begin.

    STATEMENT OF HON. SCOTT BUSBY, ACTING PRINCIPAL DEPUTY 
   ASSISTANT SECRETARY OF STATE, BUREAU OF DEMOCRACY, HUMAN 
  RIGHTS, AND LABOR, U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Busby. Thank you, Mr. Chairman, and thank you to 
members of the committee.
    We really appreciate your holding this important hearing to 
focus attention on the deteriorating human rights situation in 
Burma in the wake of the February 1st coup.
    We greatly appreciate the Senate's ongoing concerns about 
Burma at this critical juncture in the nation and region's 
history.
    Military leaders of Burma have brutally sought to remain in 
charge of Burma's future regardless of the people's will.
    The pro-democracy protests and peaceful demonstrations of 
the civil disobedience movement have made it clear that the 
Burmese people do not want to live in a country where their 
votes are summarily dismissed, their human rights and 
fundamental freedoms are not respected, and where the military 
is free to commit violence against them with impunity. Nor do 
they want to live in a country, once again, cut off from the 
world.
    We are deeply alarmed by the deteriorating environment for 
civil society, labor unions, and journalists. Since February 
1st, security forces have killed at least 275 people.
    The Assistance Association for Political Prisoners, a 
Burma-based organization, has identified over 2,000 persons who 
have been arrested, charged, or sentenced in relation to 
opposing the military coup as of March the 15th.
    We expect those numbers to increase as the military 
tightens its hold. We are continuing our long-standing support 
for programs that benefit civil society leaders, activists, and 
young people, and working to help those most at risk after the 
coup, including journalists.
    The Administration is also working hard to protect those 
fleeing the repression. We have engaged with the U.N. High 
Commissioner for Refugees, nongovernmental organizations, and 
other governments in the region to provide persons seeking 
refuge with appropriate protection. We have urged those 
governments to respect the principle of nonrefoulement.
    We are also providing protections to the people of Burma 
living in our own country. Earlier this month, the Department 
of Homeland Security, in consultation with the Department of 
State, designated Burma for Temporary Protected Status for 18 
months so that Burmese nationals and habitual residents without 
nationality may remain temporarily in the United States.
    Organized labor has been instrumental in initiating and 
sustaining the ongoing democracy movement. In response, the 
military junta has targeted workers and unions, and negated 
core labor rights and protections.
    On March the 20th, United States issued a statement at the 
most recent session of the ILO governing body condemning the 
military's actions against trade unionists and workers.
    The junta is, similarly, attacking the media. The junta's 
actions have created a culture of fear among independent news 
sources throughout the country. We are doing all we can to 
support independent journalism within Burma.
    The junta also continues to restrict access to the internet 
and online communication tools. Days after the coup, for 
instance, the military ordered internet service providers to 
block access to Facebook, Wikipedia, Twitter, and Instagram.
    The department is engaging with these service providers to 
encourage them to continue their operations to the extent 
possible, and we are training civil society actors on how to 
minimize risks in their use of circumvention and other tools.
    Those who have led the military coup in Burma are many of 
the same individuals responsible for previous abuses, 
particularly in ethnic areas and including the horrific 
atrocities against the Rohingya.
    We believe the safety and security of Burma's ethnic and 
religious minority communities is a critical part of the larger 
discussion on the way forward.
    We remain committed to providing accountability for the 
perpetrators of atrocities against the people of Burma, 
including the Rohingya. Documentation of ongoing violence and 
human rights violations against protesters and civil society 
activists is essential to initiating accountability.
    As you may recall, in 2019 the Department of State publicly 
announced senior leaders of Burma's military, including the 
Commander in Chief and their immediate family members, were 
ineligible for travel to the United States because of their 
involvement in gross violations of human rights, including 
those against the Rohingya.
    The Department of Treasury similarly imposed Global 
Magnitsky sanctions on those same leaders. We also continue to 
support multilateral efforts to promote accountability for 
those responsible for these atrocities, including through the 
U.N.'s Independent Investigative Mechanism for Myanmar.
    As a consequence of Secretary Blinken's decision to 
reengage with the U.N. Human Rights Council, we actively 
participated in a special session of the Council on Myanmar in 
February and co-sponsored the resolution that was adopted by 
the Human Rights Council yesterday, which, among other things, 
extends the important mandate of the Special Rapporteur on the 
human rights situation in Myanmar, Mr. Tom Andrews, who you 
will hear from later today.
    The United States also continues to provide humanitarian 
and development assistance to ethnic and religious minority 
communities, notably, Rohingya communities impacted by ethnic 
cleansing and other human rights violations.
    The United States remains the largest supporter of efforts 
to provide assistance to those affected by the military's 
ethnic cleansing and other atrocities in Rakhine State since 
2016.
    Again, thank you, Mr. Chair, and other members of the 
subcommittee, for holding this hearing on the U.S. response to 
the coup in Burma. We look forward to working with you and I am 
happy to take your questions.
    [The prepared statement of Mr. Busby follows:]

          Prepared Statement of the Honorable Mr. Scott Busby

    Mr. Chairman and Members of the Committee, thank you for holding 
this important hearing to focus attention on the deteriorating human 
rights situation in Burma in the wake of the February 1 military coup 
d'etat. We greatly appreciate the Senate's ongoing concerns about Burma 
at this critical juncture in the nation and region's history.
    The military leaders of Burma have brutally sought to remain in 
charge of Burma's future regardless of the people's will. They have 
sought to consolidate power over the country's resources at the expense 
of the nation. They have violently attacked or imprisoned any who are 
perceived to threaten their power, with more than 2,000 detained since 
the start of the coup. The pro-democracy protests and peaceful 
demonstrations of the civil disobedience movement over the past 2 
months have made it clear that the Burmese people do not want to live 
in a country where their votes are summarily dismissed, their human 
rights, and fundamental freedoms are not respected, and where the 
military is free to commit violence against them with impunity. They do 
not want to live in a country, once again, cut off from the world.
    deteriorating environment for civil society, labor unions, and 
                              journalists
    We are alarmed by the deteriorating environment for civil society, 
labor unionists, and journalists in Burma. Since February 1, security 
forces have killed at least 275 people. In every case for which we have 
specific information, the person died of gunshot wounds. Medical 
workers have said they are prevented by the military from helping 
injured protesters and security forces have attacked health care 
personnel and facilities.
    The Assistance Association for Political Prisoners, a Burma-based 
organization, has identified over 2,000 persons who have been arrested, 
charged or sentenced in relation to opposing the military coup, as of 
March 15. We expect the numbers to increase as the military tightens 
its hold on the country.
    The Administration is also working to protect those fleeing 
repression. We have engaged with the U.N. High Commissioner for 
Refugees, nongovernmental organizations, and other governments in the 
region to identify persons seeking refuge outside Burma and to provide 
them with the protection they deserve. We have urged other governments 
in the region to respect the principle of non-refoulement.
    We are also providing protection to the people of Burma living in 
our own country. Earlier this month, the Department of Homeland 
Security, in consultation with the Department of State, designated 
Burma for Temporary Protected Status (TPS) for 18 months, so that 
Burmese nationals and habitual residents without nationality may remain 
temporarily in the United States.
                            organized labor
    Organized labor has been instrumental in initiating and sustaining 
the on-going pro-democracy movement. In response, the military junta 
has targeted workers and unions, and negated core labor rights and 
protections. It has declared 16 trade unions and labor organizations 
illegal, threatened them with prosecution, raided workers' housing 
complexes in search of union leaders, and violently attacked trade 
unionists peacefully exercising their fundamental rights. Many trade 
unions have ceased their operations due to the worsening environment, 
and many union leaders and members have gone into hiding.
    On March 20, the United States issued a Statement at the 341st 
Session of the ILO Governing Body addressing the situation in Burma and 
condemning the military's actions against trade unionists and workers 
as an assault on democracy, the core values of the ILO, and workers' 
ability to exercise their human and fundamental worker rights.
                           media and internet
    The junta is similarly attacking the media. We are deeply concerned 
by the recent arrest of eight journalists, who have been charged under 
Article 505(A) of the Myanmar Penal Code, for reporting on pro-
democracy protests. Their arrest came on the heels of the revocation of 
operating licenses for five independent news outlets. As of March 21, 
21 journalists remain in detention. The junta's actions have created a 
culture of fear among independent news sources throughout the country. 
We are doing all we can to support independent journalism within Burma 
as it faces escalating pressure from the security forces.
    The junta also continues to restrict access to the Internet and 
online communication tools. Days after the coup, the military ordered 
Internet service providers to block access to Facebook, Wikipedia, 
Twitter, and Instagram. Authorities have blocked certain censorship 
circumvention tool websites as well as instant messaging apps, such as 
WhatsApp and Facebook Messenger and continue to impose nightly broad 
Internet blackouts, including cellular data and Wi-Fi. The Department 
continues to engage with these service providers to encourage them to 
continue their operations to the extent possible and we continue to 
train civil society actors on how to minimize risks in their use of 
such tools.
                           ethnic communities
    Those who have led the military's coup in Burma are many of the 
same individuals largely responsible for previous abuses throughout the 
country, particularly in ethnic areas and including atrocities against 
the Rohingya. We believe the safety and security of Burma's ethnic and 
religious minority communities is a critical part of the larger 
discussion on the way forward in Burma.
    We remain committed to promoting accountability for the 
perpetrators of atrocities against the people of Burma, including the 
Rohingya. Documentation of ongoing violence and human rights violations 
against protesters and civil society activists is essential to 
initiating accountability.
    As you may recall, in 2019, the Department of State publicly 
announced senior leaders of Burma's military, including Min Aung 
Hlaing, and their immediate family members, were ineligible for travel 
to the United States under Section 7031(c) of the Appropriations Act 
because of their involvement in gross violations of human rights 
against ethnic minorities, including the Rohingya. Later that year, the 
Department of the Treasury imposed Global Magnitsky sanctions on those 
same senior military leaders. As we stated at the time, our public 
7031(c) designations and sanctions were intended to deter abuses and 
violations of human rights against the Rohingya and other ethnic 
minorities.
    We also support multilateral efforts to promote accountability for 
those responsible for these atrocities and other abuses, including the 
U.N.'s Independent Investigative Mechanism for Myanmar, whose mandate 
includes documenting ongoing abuses as well as those that took place in 
the past. As a consequence of Secretary Blinken's decision to re-engage 
with the U.N. Human Rights Council, we actively participated in a 
Special Session of the Council on Myanmar in February and have co-
sponsored the resolution that was adopted by the Council yesterday, 
which, among other things, extends the important mandate of Special 
Rapporteur on the human rights situation in Myanmar, Mr. Tom Andrews, 
who you will hear from after us.
    The United States will also continue to provide humanitarian and 
development assistance to ethnic and religious minority communities, 
notably Rohingya communities impacted by ethnic cleansing, other 
atrocities, and a deep and abiding legacy of societal intolerance and 
human rights violations. The United States remains the largest 
supporter of efforts to provide assistance to those affected by the 
military's ethnic cleansing and other atrocities in Rakhine State since 
2016.
    Again, thank you for holding this hearing on the U.S. response to 
the coup in Burma. We look forward to working with the Members of the 
Committee and I will be happy to take your questions.

    Senator Markey. And now we will begin our question and 
answer period, and we will recognize members in order of 
seniority on the subcommittee.
    Let me begin by just saying to you, Mr. Busby and to 
Ambassador Keshap, that I have been pleased that the 
Administration has taken strong initial steps to respond to the 
coup, including an announcement just this morning that you are 
designating two of the military's largest business holdings, 
the Myanmar Economic Corporation and the Myanmar Economic 
Holdings Limited, in the extension of temporary protected 
status for Burmese citizens living in the United States. I 
think that is very important.
    And I also thank the State Department for its recent 
response to my bipartisan letter on the coup sent with a group 
of my colleagues in February.
    Ambassador Keshap, the response to my letter indicated that 
the State Department is currently reviewing all assistance to 
Burma--can you please describe what specific aid the department 
is reviewing and what the implications may be as aid is cut off 
or redirected?
    Ambassador Keshap. Thank you, Senator. I think the 
philosophy guiding us is, essentially, that we want to make 
sure that American aid money benefits the people of Burma, that 
it strengthens civil society, that it strengthens democracy, 
and that it does not go to the military.
    It does not go to the junta. It does not go to the people 
who have blocked the aspirations of the Burmese people.
    We have redirected $42 million in assistance to ensure that 
it even more greatly goes toward the people who need help at 
this time. I think for further details on that I would defer to 
USAID.
    But the essential element here is to make sure that in no 
way, shape, or form do we support anybody who has been backing 
this junta and we want to show a strong signal of support to 
civil society.
    Thank you, Mr. Chair.
    Senator Markey. Thank you.
    Let me follow up with you, Mr. Busby. When Secretary 
Blinken appeared before the full Senate Foreign Relations 
Committee at his nomination hearing, he committed to me that he 
would oversee an interagency process to determine whether the 
crimes committed by the Burmese military against the Rohingya 
constitute a genocide.
    Can you please tell us what the status is of that review, 
including which official and which office is overseeing it as 
well as when we can expect a determination?
    Mr. Busby. Thank you for that question, Mr. Chair.
    The review that Secretary Blinken committed to has begun. 
That said, the coup has, obviously, compelled us to consider 
and undertake a wide array of actions. Many of those actions, 
including the sanctions announced today against MEC and MEHL, 
apply to the same individuals and entities responsible for the 
atrocities against the Rohingya or for financially supporting 
those same individuals and entities.
    However, we have not forgotten and will not forget the 
horrific atrocities suffered by the Rohingya and their ongoing 
plight. I personally have been to Rakhine State and to the 
refugee camps in Cox's Bazar, and I heard and saw firsthand 
what the Rohingya have suffered.
    We will continue to do our utmost to hold accountable those 
responsible for that suffering and seek to remedy the 
injustices they have endured for so long.
    Senator Markey. Where are you in terms of the determination 
of whether or not what the army has been doing constitutes a 
genocide? Where are you in that process?
    Mr. Busby. As I mentioned, the process has begun. I cannot 
get into more details than that at this point, Mr. Chair. But 
the secretary is very committed to the review and to this 
process, and I think we will have an answer in the not distant 
future.
    Senator Markey. As we see an escalation in violence by the 
army against the people in Burma, it is more important than 
ever that the United States call the crimes committed against 
the Rohingya what they are, genocide.
    I want you to continue to send that message to the 
Administration. I think it is very important.
    Ambassador Keshap, now that targeted U.S. and EU sanctions 
are in place and with the announcement of the designations of 
these army-related economic entities, what will be the primary 
source of ongoing foreign revenue for the military junta 
itself?
    Ambassador Keshap. Mr. Chair, that is a simple question 
with an extremely complicated answer that I think occupies a 
lot of people in the State Department, Treasury Department, and 
other parts of the Executive Branch.
    We are studying this day by day. We have targeting and 
sanctions teams that are constantly at work and we are trying 
to get to the bottom of it.
    Obviously, the situation in Burma is not exactly 
transparent. The military is an extremely secretive 
organization, and they are able to rely upon all sorts of 
revenues that are not easily tracked.
    Whether it is the natural resources or it is drug 
trafficking or the arms trafficking that occurs in Burma, there 
are so many things happening that we try our best to track and 
ascertain.
    We talk to a very broad cross-section of civil society and 
we are constantly at it. The approach----
    Senator Markey. Let me ask you, can you focus on the 
Myanmar Oil and Gas Enterprise? That seems to be a huge source 
of revenues for them as they interact with international oil 
companies. Have you looked at that as a place where you could 
stop foreign revenues from going into the country?
    Ambassador Keshap. A great question. We are studying all of 
these possibilities, including MOGE. But the issue, I think, 
that guides us is the question of whether it mostly impacts the 
military or if it also has an impact on the people.
    And so these discussions and deliberations are ongoing. I 
am not in a position to make any announcements at this 
juncture.
    But I can assure you, Mr. Chair, that we look at all these 
things very, very closely, and there is a very careful analysis 
that is done of all of the various first order, second order, 
third order ramifications of whatever decisions we might make.
    Senator Markey. I think that is wise. We do not want to 
invoke the law of unintended consequences when it comes to 
additional humanitarian damage which is caused at the same 
time, especially in the oil and gas area.
    I have always found in my experience that that is where 
those cozy relationships get very questionable between oil 
companies internationally and the leaders of countries, 
especially authoritarian, which is what the army has now 
created in Burma.
    You should look very carefully at that while, keeping 
humanitarian concerns at the top of the agenda.
    Let me turn and recognize Senator Romney.
    Senator Romney. Thank you, Mr. Chairman.
    Ambassador Keshap, why is it that the military decided to 
take the country back over to execute this coup? I presume it 
was for personal wealth. Is that true or are there other 
motivations, you think, that led to the coup?
    Ambassador Keshap. Senator, it is very hard for me to 
ascribe motive to the Commander in Chief. There are people who 
have offered various hypotheses about what may have triggered 
his decision, whether it was personal ambition or it was 
preservation of the military's vast and ill-gotten wealth, or 
if it was a mere power play over the democratic leadership and 
institutions of Burma, or if it was something else entirely.
    I am not sure we will be able to get to a firm answer on 
that. But what I can tell you is what he decided is absolutely 
and completely out of step with the aspirations of the Burmese 
people and they let it be known.
    Senator Romney. Of course. Of course. Yeah, of course, that 
is true. I guess the assumption is it is money. You know, money 
and power often go together.
    But, clearly, the reason many people want to have power is 
so they can get the wealth for themselves and their families 
and so forth that they aspire to.
    I would note you, correctly, are concerned about the 
humanitarian needs of the people in Burma. But, of course, 
money is fungible, and if we are going to put pressure on the 
financial resources that are going to the Burmese military, 
their leadership, that could either be suffered by the people 
or by the leaders themselves.
    But that is not going to be our choice. That will be their 
choice, and we will have to make a decision as to whether we 
want to put in place those kinds of painful elements.
    Have we done anything? I mean, they have been here before. 
The military has been in charge of this country before, they 
carried out genocide against the Rohingya before, and so they 
suffered sanctions before. They, clearly, expected that that 
would happen again.
    So what we are doing right now is not something they do not 
expect. Is there something we could be doing that they--that 
they really do not expect, that they say, holy cow, did not see 
this coming? Or are we, basically, going by the same playbook 
and expecting a different result than--as a result of doing the 
same thing we did before?
    Ambassador Keshap. Senator, thank you for that. You will 
forgive me if I want to keep the military guessing by not 
telegraphing what we might be planning to do.
    But I will say that I would suggest that what we are doing 
now is a little different from the past. We really appreciated 
the intent of the sectoral sanctions like the JADE Act.
    But what these are doing now is really pinpointing the 
Commander in Chief, his family, his ruling circle. These are 
very carefully sort of designed sanctions to put pressure on 
the Commander in Chief, to put pressure on his children, on his 
family to make him realize that he has bitten off more than he 
can chew, that he is out of step with his own people, and that 
he needs to start looking for alternatives to the current 
terrible situation.
    Senator Romney. Yeah, I presume we have done that before. 
So he expected it, and I do not imagine we have seen a change 
in behavior by virtue of what has been done so far.
    Why is it that the Chinese have not condemned this coup? I 
mean, are they trying to protect this junta in some way, do you 
believe?
    Ambassador Keshap. Senator, I cannot authoritatively 
ascribe a motivation to the Chinese. But I do think that we are 
motivated by a desire to support the people. I would guess that 
they are motivated by a desire for stability.
    They have profound strategic and economic interest in 
Burma. It is their back door to the Bay of Bengal for their 
remote interior provinces.
    I think they care about stability more than anything, and 
while we have seen some cooperation with them in the U.N. 
Security Council, which helped us get through two U.N. Security 
Council statements on Burma, I think the Chinese are probably 
deeply anxious to see a return to stability so that they can 
keep preserving their strategic and economic interests, which, 
as I said, are compelling for them.
    Senator Romney. Is there a worst case scenario where, in 
fact, it is not a stable country but it devolves into violence 
of some kind?
    Is that unlikely or--because, clearly, if their interest is 
stability without regard to the human cost, then if there were 
a threat of instability, potential conflict of a military 
nature, amongst the people--a civil unrest leading to 
conflict--that would be something they would be concerned 
about.
    Is that not a downside or is the military in sufficient 
control that that would really not be an issue?
    Ambassador Keshap. I think we--look, diplomats are always, 
to an extent, believers in the Hippocratic oath. Things can 
always get worse and, therefore, we should always in our 
actions try to ensure that we do not do further harm.
    There is always the possibility that things could get worse 
in Burma, which the situation could deteriorate. This is why we 
are working with friends and partners in the region, primarily 
in ASEAN but also with Japan and Korea, with India, and with 
European partners, Australia and others, and China.
    We want to make sure that we can try to avoid any further 
degradation of the situation in Burma. We do not want to see 
any more humanitarian suffering than has already taken place, 
and we want to see how we can get more countries than just the 
United States to try to get the junta to see that the situation 
is untenable and that they have to recalculate. And they have 
to talk to their own people and they have to talk to the 
civilian-elected leadership of Burma.
    And this is why I think we are engaged in constant 
conversations because we work very hard to ensure that things 
do not get worse.
    Senator Romney. Yeah. Thank you, Mr. Ambassador. I think I 
have taken my time. I do not see a clock here at the--Mr. 
Chairman, you have not told me how long we can go here. But I 
will yield my time so that other members of our committee get a 
chance to ask a question.
    Senator Markey. We are operating under a kind of conscience 
clock in our brains, because it is difficult to know exactly 
how much time has elapsed.
    Let me recognize Senator Schatz.
    Senator Schatz. Thank you, Mr. Chairman, Ranking Member, 
and to our panel, thank you very much for doing this hearing.
    I want to talk to you about the press crackdown. The 
military has cracked down on press freedom since the coup on 
February 1st and has suspended media licenses of five local 
outlets and it has raided offices and assaulted journalists. 
Human rights observers estimate that at least 38 journalists 
have been detained.
    What can we do to protect journalists and others who are 
reporting on the demonstrations? First, for the ambassador?
    Ambassador Keshap. Well, Senator Schatz, thank you very 
much for that question. It is extremely important. Look, the 
United States bats for freedom of speech and media freedom and 
press freedom all around the world, and that is no different in 
Burma.
    We have been very, very clear about this. I would like to 
turn to my learned colleague, Scott Busby, to talk a little bit 
more about media freedom, since that is in the particular 
wheelhouse of his bureau.
    But we are doing everything we can to ensure that our 
values are very clearly on display, that the Burmese people 
know what those values are, and that journalists in Burma can 
always rely on the support of the United States.
    Thank you.
    Senator Schatz. Great. Mr. Busby?
    Mr. Busby. Thank you, Senator. Thank you, Atul.
    As Atul indicated, we continue to publicly support 
journalists and message to the military that crackdowns on 
journalists are unacceptable.
    Specifically, our embassy has attended ongoing judicial 
proceedings on detained journalists to shine a light on such 
cases, and I think that demonstrates concretely the fact that 
we care about these sorts of cases.
    Senator Schatz. Thank you.
    Mr. Busby. We have supported independent journalism in 
Burma for a long period of time and will continue to do so.
    Senator Schatz. Thank you.
    You know, Senator Young and I have a bill to establish an 
ambassador-at-large for press freedom in the State Department. 
We look forward to working on a bipartisan basis to try to 
enact that
    I want to move on to internet access. The military has 
tried to control internet access as part of the coup. Engineers 
were forced to turn off equipment and physically cut wires.
    Burma, like a lot of places, is different than even a 
decade ago. In 2010, less than 1 percent of the country had 
access to the internet. Now it is about 30 percent. It is just 
a function of everyday life.
    And so the military learned that it cannot just turn the 
internet off. They are still blocking websites and limiting 
communications, but they are struggling in part because Burma 
is not walled off from the rest of the world.
    There are two aspects I want to discuss here. The first is 
our response to foreign support of the telecom sector. In 2014, 
Burma opened up to outside competition. So now you have 
companies like Norway's state-owned Telenor and Vietnam state-
owned Viettel delivering service.
    So what can we do in terms of working with companies that 
have a stake in Burma's telecom sector to ensure that they are 
not assisting in the coup by providing technical support to 
blocking websites?
    And I will jump on whoever is more appropriate to answer 
that question.
    Ambassador Keshap. Would you permit me a general comment 
and then defer to Scott for the detailed answer?
    Senator Schatz. Sure.
    Ambassador Keshap. The general comment, I think, is that 
the military is realizing that you are damned if you do and 
damned if you do not, when it comes to a coup. If you block the 
internet, you can constrain your people from communicating and 
exchanging views, but you also starve the economy.
    And I think nations around the world have realized that if 
they maintain free and open access to the internet, it ensures 
an empowered, prosperous, and happy citizenry and contributes 
to democracy.
    And so they are trying to play this delicate juggling act. 
But at the end of the day, the proof is already there that the 
Burmese people have tasted what freedom and openness look like, 
and there is no further proof needed than to see the people on 
the streets raising the three-fingered salute that comes from 
the American teen fiction ``The Hunger Games'' and from, you 
know, so many movies that they have seen.
    So I think you have raised a compelling question, Senator, 
and let me turn it over to Mr. Busby. Over.
    Mr. Busby. Thanks, Atul, and thanks, Senator, for that very 
good question.
    The State Department and DRL, in particular, have ongoing 
connections with tech companies, and in this case, we have been 
speaking with them to seek to ensure responsible behavior.
    As Atul mentioned, they are in a tough spot because in 
order to operate the Burmese Government requires them to do 
certain things. So it is a delicate balancing act that they 
have to play.
    But we have been encouraging them, as we do in any 
situation like this, to abide by human rights norms consistent 
with something called the U.N. Guiding Principles on Business 
and Human Rights.
    We do not believe that shutting down telecommunications 
will silence the voice of the people nor will it prevent 
information about what the junta is doing from getting out.
    So I think this is, again, a demonstration of how afraid 
the junta is of giving the Burmese people the opportunity to 
communicate freely and to express their opinions freely.
    Senator Schatz. Just one final comment for both the 
committee and the State Department and the international 
community as it works through these issues, just to try to get 
some granularity in terms of the various techniques of control 
around communications.
    You know, snipping wires is one thing. Limiting access 
creating, you know, intranets rather than internets is another, 
and then there is the question of characterizing communications 
on social media platforms as terrorists or anti-government 
content.
    I mean, those are--those are separate issues. Obviously, 
from the strategic standpoint, they may be moving in the same 
direction. But I think we have to get better about 
understanding the various techniques and understanding that 
each technique requires its own discrete response within the 
overall strategy.
    Thank you.
    Senator Markey. Thank you, Senator Schatz.
    Senator Johnson.
    [No response.]
    Senator Markey. Senator Johnson, are you there?
    [No response.]
    Senator Markey. Senator Johnson, you are recognized.
    [No response.]
    Senator Markey. Senator Johnson, I can see your name up on 
the screen. I am just wondering if you are there.
    [No response.]
    Senator Markey. Are there other senators seeking 
recognition?
    Senator Romney. I would suggest the absence of a body.
    Senator Markey. I agree with you, and have a couple of more 
questions. Senator Romney, maybe you have a couple more and 
then we will thank this first panel for their testimony.
    May I ask, what is the State Department doing right now in 
terms of planning and coordination with other countries in the 
region for the possibility that a large-scale migration is 
going to occur, leaving Burma, creating a humanitarian--an 
additional humanitarian crisis in the region? What is the 
Administration doing right now to prepare for that possibility?
    Ambassador Keshap. Senator, thank you very much. We have a 
bureau, the Bureau of Population, Refugees, and Migration, that 
focuses on these issues and has received the tremendous 
generosity of the American people and the United States 
Congress over the years in taking care of refugee populations 
all around the world.
    And I can say, as the son of a refugee, how much America's 
leadership matters in the world and how much America's 
compassion matters in the world.
    So we have a refugee coordinator in Bangkok, a regional 
refugee coordinator. He is very engaged, and I would say at the 
apex level what we are trying to do is, going to Senator 
Romney's question, trying to ensure that the situation does not 
get worse.
    Look, obviously, there are countries in the region that 
are--that are experiencing severe impact and already have, 
Bangladesh most prominently but also Thailand, Malaysia, and 
others, and so they have a great interest in what happens in 
Burma.
    And so we are working with ASEAN. We are working with 
regional partners. There is a lot of, I think, diplomacy going 
on. You have seen the various statements by various ASEAN 
countries.
    I know that Foreign Minister Retno Marsudi has been 
traveling in the region, also Foreign Minister Vivian 
Balakrishnan, those of Indonesia and Singapore, respectively.
    And, of course, Secretary Blinken asked right away to talk 
with the ASEAN member parts in a collective discussion, and we 
are awaiting a response from ASEAN. It is a consensus-driven 
body.
    But I am pleased to report to you that Secretary Blinken 
right from the outset has engaged unilaterally--bilaterally I 
should say--with all of--with many of his counterparts in ASEAN 
and beyond the region as well--Japan, Korea, Europeans, ``Five 
Eyes''--to discuss the situation in Burma. It has also come up 
in Quad discussions.
    And so the issue here is to ensure that we can try to avoid 
any further precipitous decline in the situation that would 
create even further burden on the nations in the region and, 
frankly, the world. Thank you.
    Senator Markey. Okay. Thank you.
    Senator Romney, do you have any other questions?
    Senator Romney. Yes, I do. Thank you. Comments and perhaps 
a question.
    But that is--and I am being perhaps somewhat cynical here, 
but I think realistic at the same time, which is I cannot 
imagine that the military junta proceeded down this road 
without having a great deal of confidence that China was not 
going to stop them.
    In many respects, I would not be surprised to find that 
China is encouraging or behind the scenes encouraging what has 
happened here. Perhaps China expects that the Myitsone Dam is 
going to get reopened and they are going to get the power they 
would like or some other deal, and so they are going to pretend 
like they oppose but they are not going to do things to really 
put pressure.
    Because given the extraordinary economic connection between 
Burma and China, if China were really going to close things 
down, why, this thing would stop in a big hurry. And I mean, 
you look at the situation in Venezuela, for instance. We put 
all this pressure on Maduro. Maduro would not still be there 
were it not for Cuba and Russia supporting him.
    And so I do think there is a very real possibility and 
probability that China is, in some respects, complicit in what 
we are seeing.
    And what that suggests to me is that we ought to take 
advantage of communicating to the world that China is sleeping 
as people are weeping, if you will.
    China is engaged in a worldwide effort to say that 
democracy does not work and that the world should adopt 
autocracy and become autocratic, that that is a better way to 
go for the people, and they seem to be winning. In the last 15 
years autocracies have been gaining and democracies have been 
declining.
    And I just think we need a very aggressive world effort, if 
you will, to let the world know what China is doing and to show 
what is happening by virtue of them turning a blind eye at 
least to what is happening to their neighbor and their 
largest--Burma's largest trading partner.
    And I do not know how we can go about doing that in a more 
effective way. But, you know, we can sell Coca Cola around the 
world, right. We can market that extraordinarily.
    For a little bit of caramel water we can charge people a 
buck a can. You would think that kind of marketing know-how 
would allow us to communicate effectively throughout the world 
what we are seeing and, perhaps, turn enough public heat up on 
China that they might decide, hey, we better push back on these 
Burmese military folks.
    So I turn to the Ambassador and Mr. Busby. Any comments in 
that regard? Can we up our PR effort, our communications gains, 
throughout the region and, thereby, put a lot more pressure on 
China?
    Because my guess is there is almost no sanction that we are 
going to put in place that is going to change the Burmese 
military from the course they are on. But China has the 
capacity to do that. Maybe India, to a lesser extent, but 
China, certainly, does.
    Any thoughts about that?
    Ambassador Keshap. Senator, you have raised a profound set 
of issues.
    I would say that from my service overseas as an ambassador 
and in the last 2 years serving in the EAP bureau as PDAS it is 
abundantly clear, and I am not stating anything you do not 
know, that the Chinese play a long game. And they play a long 
game in all of these countries and they have very clear 
strategic and economic interests, and they are very pragmatic 
in how they approach things.
    We will always stand up for values. We will always stand up 
for American values, and I think that these young people in 
Burma know what those values are. And so I think, in a way, the 
U.S. Government is selling our version of Coca Cola, to make 
your point.
    Our values are very strong and very clear. And we see these 
folks in the streets every day risking their lives to espouse 
these values. I am extremely impressed and inspired by them and 
their devotion to our values.
    I do not think our Chinese counterparts have that. We also 
have an unbeatable alliance network and partnerships all around 
the world. I do not think the Chinese have that.
    And so we, too, have to play a long game. We have to have 
faith in our values, faith in our strengths, faith in our 
friendships and our alliances that we have built up over many 
decades of careful effort.
    And I am optimistic. We owe it to the little girl who was 
shot in her father's arms by security forces in Burma a couple 
of days ago. We owe it to the young people who were shot, 
teenagers who were protesting in the streets for their rights.
    And so we are going to keep work--you know, we will keep 
working at it. I think the EAP Bureau has tried very hard 
working with the broader State Department to shine a light on 
the challenges that we face all around the world with regard to 
China's increasing assertiveness, and we will keep at it, sir.
    Senator Romney. Thank you.
    Mr. Busby, any comment?
    Mr. Busby. Can I just add, as you know, Senator, the Biden 
administration has made a priority of working in coordination 
with our partners around the world in pushing back on Chinese 
influence and pushing back on Chinese abuses.
    And as you saw on Monday, for the first time we announced 
coordinated sanctions on Chinese officials complicit in the 
abuses in Xinjiang. So there is a very concerted effort to work 
with our partners in pushing back on Chinese influence and 
advancing our values.
    Senator Romney. Thank you. I would just note that sanctions 
is one tool we can use but publicity throughout the region is 
another tool we can use to put heat on China and, potentially, 
to get them to be dissuaded from their tacit protection of the 
military junta.
    With that, Mr. Chairman, thank you. I appreciate this 
opportunity.
    Senator Markey. That concludes our first panel, and we 
thank both of our witnesses for their service to our country 
and for your testimony here today.
    We are going to move on to the second panel, and I will 
note that the roll call has now gone off up on the Senate 
floor. So both Senator Romney and I will have to vote at some 
point over the next 10 or 15 minutes, requiring us to leave for 
at least a few minutes, which will be my plan, and perhaps 
Senator Romney and I can swap the gavel back and forth just to 
make sure that we are both able to vote.
    Let me begin then with our first witness on the second 
panel.
    Tom Andrews, who is the U.N. Special Rapporteur on the 
situation of human rights in Myanmar. He is a former member of 
the United States Congress representing the state of Maine and 
a Robina Senior Human Rights Fellow at Yale University Law 
School, and we just recognize the incredible amount of work on 
human rights that Congressman Andrews has done over the course 
of his career.
    So we welcome you, Tom. Whenever you are ready, please 
begin.

 STATEMENT OF HON. TOM ANDREWS, U.N. SPECIAL RAPPORTEUR ON THE 
              SITUATION OF HUMAN RIGHTS IN MYANMAR

    Mr. Andrews. Thank you very much, Mr. Chairman.
    Chairman Markey, Ranking Member Romney, and distinguished 
committee members, thank you for inviting me here today to 
discuss the crisis in Burma.
    Thank you for your strong opening statements and, 
certainly, thank you for your principled stand for the people 
of Burma. And for folks following this hearing within Burma, I 
would like to say [speaking foreign language.]
    Mr. Chairman, as you recognize, Burma is now being 
controlled by a ruthless brutal illegal military junta. You 
have already heard about the killings and the arbitrary 
detentions.
    This includes peaceful protesters being shot at point blank 
range. Just yesterday, a 7-year-old girl was shot and killed by 
Burmese security forces after they forced their way into her 
home in Mandalay.
    Credible reports indicate the junta has also tortured and 
killed numerous individuals while in custody. They have 
systematically destroyed legal protections, from freedom of 
expression, assembly, and association to the right to privacy.
    They have given themselves the authority to invade people's 
homes without warning, criminalized any criticisms of the 
junta, even making it illegal to call the junta a junta, 
enabled sweeping surveillance authorities, decimated the free 
press, banned most trade unions, instituted nightly countrywide 
internet outages, and banned gatherings of more than five 
people.
    As distressing as these developments are, Mr. Chairman, the 
response of the people of Burma has been truly awe inspiring. 
For nearly 2 months now, despite a brutal and relentless 
crackdown by the junta, millions of people all over the country 
have been engaging in peaceful and powerful protests, calling 
for justice, democracy, and the end to the violence and an end 
to the military.
    Buddhist monks are marching with Muslim clerics, healthcare 
workers, educators, bankers, construction workers, people from 
all walks of life, from every ethnicity and every age group are 
rising up in every corner of the country as diverse, yet 
powerfully unified.
    A general strike was called just after the coup. It was 
heeded by millions, and now the nonviolent civil disobedience 
movement, or CDM, is an effective, powerful and growing 
movement, drawing its organic power from the unflinching 
commitment of the people of Burma.
    Not knowing how to fight these weapons of peace, the junta 
has responded in much the same way it has for decades against 
ethnic groups throughout the country, with brutality and 
violence.
    Mr. Chairman, the courageous and tenacious people of Burma 
need our help. In the face of widespread and systematic 
murders, tortures, and disappearances, there is a growing 
pressure on the opposition leadership to defend the people of 
Burma by taking up arms against the Burmese military.
    I understand the pull to go down this path. But I believe 
that such a path would lead to a disastrous outcome for the 
people of Burma, with untold numbers of civilians caught in a 
protracted bloody civil war.
    I also believe that there is another, an alternative that 
could be both effective and save countless numbers of lives.
    But it will require a level of engagement, coordination, 
and exertion of leverage that has yet to emerge, an alternative 
that requires that the United States play an active leadership 
role.
    It includes the imposition of tough, focused, and 
coordinated sanctions that are capable of impeding the flow of 
funds to the junta and demonstrate that its criminal acts will 
be met by meaningful retaliation.
    I applaud the Administration's move announced today to 
include the junta's major business conglomerates for sanctions. 
This is a very important step forward, and I encourage the 
Administration to also sanction the oil and gas sector that 
provides the largest single source of revenue to the junta for 
their criminal activity.
    This can be done without interrupting the flow of oil and 
gas to Burma and its neighbors through licensing measures by 
the U.S. Treasury.
    But what is critically important is that the Administration 
work closely with our allies to coordinate international 
sanctions so that, taken together, their collective weight will 
deliver a powerful blow. This requires organization and 
outreach.
    What is also required, Mr. Chairman, is an imaginative, 
tenacious, and coordinated diplomatic approach that joins those 
who share common ground, be that based on common values or 
common interests together.
    To this end, I believe that an emergency summit on Burma 
should be organized as soon as possible that includes the 
representatives of the elected leadership of Burma, the 
Association of Southeast Asian Nations, or ASEAN, and nations 
who are willing to step up and support such an initiative, 
particularly those in the region, and it should also include 
China, who has a powerful interest in avoiding a conflagration 
on its border.
    To be successful, this will require organization and 
leadership, a role that the United States is well positioned to 
help them on.
    Mr. Chairman, the people of Burma need to know that the 
people of the United States and the world are with them not 
only in word but in deed, that we are willing to establish 
strong coordinated pressure and forward-leaning diplomatic 
engagement in support of a peaceful civil disobedience 
movement, and that this combined course of action--domestic 
peaceful resistance with international pressure and diplomatic 
momentum--will have a powerful chance for success than taking 
up arms.
    Finally, Mr. Chairman, it is my sincere hope that the 
United States and the international community will rise to the 
occasion of this historic moment, that we will follow the lead 
and inspiration of the people of Burma, and that we will stand 
with and for them in support of their courageous struggle for 
justice, democracy, and their children's future.
    They deserve no less. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Andrews follows:]

       Prepared Statement of the Honorable Thomas H. Andrews \1\

    Chairman Markey, Ranking Member Romney, distinguished members of 
the Subcommittee, thank you for inviting me here today to discuss the 
crisis in Burma. I am here to report on factors that led to the coup, 
the current state of the crisis, and, most importantly, what actions 
the international community, and specifically, the United States can 
take to help return the country to a democratically-elected government.
    As we sit here, the crisis in Burma is at an inflection point. 
Peaceful opposition to the illegal coup has been widespread and 
sustained since the February 1st takeover. Protesters have taken to the 
streets by the millions and civil servant and private sector workers 
have gone on strike. Their courage has not waivered despite the Burmese 
military and police having murdered at least 275 civilians, arbitrarily 
detained over 2,200, and tortured many.
    Mr. Chairman, there are strong indications that the Burmese junta 
is engaging in crimes against humanity. And I fear this horrific crisis 
will get far worse in very short order without strong diplomatic 
intervention from the United States and other members of the 
international community. I believe that to date, actions by the 
international community, including those of the United States, have 
fallen short of what is required to head off this deepening crisis.
    In the face of widespread and systematic murders, tortures, and 
disappearances, there is a great deal of pressure on the opposition 
leadership in Burma, including pressure to take up arms against the 
Burmese military. I understand the pull to go down this path. But, I 
believe that such a path would lead to a disastrous outcome for the 
people of Burma with untold numbers of civilians caught in a 
protracted, bloody civil war. The United States and its allies should 
do everything in their collective power to avoid this outcome by 
providing the peaceful opposition movement in Burma the opportunity to 
succeed.
    In my view, the actions needed now include the imposition of 
strong, coordinated sanctions to impede the flow of funds to the junta 
and to demonstrate that its criminal acts will be met by meaningful 
retaliation. I also believe that the international community, with 
leadership from the United States, must engage in a diplomatic 
offensive, that would include the convening of an emergency summit with 
representatives of the duly elected leadership of Burma, Burma's 
neighbors and influential states in the region, including China.
    A critical step will be a united effort among states to stop the 
flow of revenue into the illegal junta's coffers. This can happen now. 
Coordinated bilateral sanctions should be imposed on the junta's major 
sources of revenue, including military owned and controlled enterprises 
and the oil and gas sector. The military directly owns two major 
conglomerates, Myanmar Economic Holding Limited (MEHL), and Myanmar 
Economic Corporation (MEC). These conglomerates and their subsidiaries 
provide untold millions in off budget revenue to the military. 
Meanwhile, the oil and gas sector accounts for the single largest 
source of revenue to the state, overseen by the Myanmar Oil and Gas 
Enterprise (MOGE), which is now effectively controlled by a murderous 
criminal enterprise.
    While the Biden administration prevented the junta from taking $1 
billion in Burmese state funds from the Federal Reserve Bank in New 
York immediately after the coup, the U.S., EU, and other states have 
since focused sanctions largely on individuals and some limited 
companies that do not provide significant revenue to the military. MEC, 
MEHL, and MOGE remain untouched by sanctions despite a chorus of calls 
for sanctions on these entities by hundreds of civil society 
organizations from Burma. The United States must sanction these 
entities and their subsidiaries to meaningfully degrade the junta's 
sources of revenue.
    Mr. Chairman, in my view the time for incremental steps has long 
passed. The U.S. should work to bring key allies together to establish 
a coordinated sanctions regime so that sanctions add up to a powerful 
whole that will have maximum impact on this murderous regime.
    The people of Burma and opposition leaders must be able to 
recognize that the international community is working towards a 
diplomatic solution in support of the peaceful Civil Disobedience 
Movement, and that this combined course of action--domestic peaceful 
resistance and international diplomatic momentum--will have a greater 
chance for success than taking up arms.
    To this end I believe that an emergency summit on Burma that 
includes the Committee Representing Pyidaungsu Hluttaw (CRPH), the body 
that represents the duly elected leaders of Burma, and the Association 
of Southeast Asian Nations (ASEAN) is critical. The United States 
should work with ASEAN, in particularly Indonesia and Malaysia who have 
been seeking a unified approach to the crisis, to hold this summit and 
bring to the fore robust and creative diplomatic initiatives to both 
support the Civil Disobedience Movement and also open a channel with 
the junta to identify terms for it to relinquish power.
    Again, unless there is a new, concerted approach taken on Burma in 
the very near term, I fear we will see a dramatic escalation of 
bloodshed.
    Mr. Chairman, allow me to step back and address some of the other 
points the Subcommittee has requested I speak to today, namely the 
factors that led to the coup, how to navigate justice for the Rohingya, 
and how to achieve the safe informed and voluntary repatriation for the 
Rohingya.
    This coup was precipitated by the very structure of the Burmese 
state that the military constructed in its 2008 constitution. While the 
military ceded certain governing responsibilities to an elected 
government, it retained substantial power. Command and control of the 
military and police was kept in the military chain of command with no 
civilian oversight, the military gave itself one quarter of the seats 
in the Burmese parliament which gave it veto power over any 
constitutional reform measures, and it retained direct ownership over 
the most lucrative business conglomerates in the country. The 
constitution also contained provisions that allowed for the President 
to cede total control of the country to the military in times of 
national crisis. With this continued power, autonomy, and quick path to 
control, the military was able to quickly re-exert its control over the 
levers of power.
    Against this backdrop, on November 8, 2020, national elections were 
held throughout Burma. The National League for Democracy won an 
outright majority, winning 396 out of 476 seats, with the military-
backed party, the Union Solidarity and Development Party, winning only 
33. The USDP alleged massive fraud and the military demanded the Union 
Election Commission (UEC) investigate allegations of voting 
irregularities. The UEC responded that there was no evidence to support 
the claim and resolved to certify the election. With the UEC having 
certified the election results, the new parliament was prepared to 
convene on February 1st. But, in the pre-dawn hours of February 1st, 
before parliament met, Burma's military conducted an unlawful coup 
d'etat, seizing all levers of power in the country, consolidating 
control over the legislative, judicial and executive branches of 
government and arresting dozens of the government's civilian 
leadership, including State Counselor Aung San Suu Kyi, and President U 
Win Myint.
    Mr. Chairman, even if election irregularities did exist, there was, 
and is, no justification for declaring a state of emergency, arresting 
the civilian leadership, and attempting to destroy Burma's fledgling 
democracy. It is notable that the military junta even failed to follow 
its own rules for taking control of the country as specified in the 
2008 constitution that the military itself drafted. This coup is truly 
illegal in every sense of the word.
    Whatever its thinking was in advance of the coup, it is clear that 
the junta badly misjudged the response from the people of Burma. For 
nearly 2 months now, despite draconian bans on gatherings, and knowing 
the history of the military's violent suppression of their right to 
expression, assembly, and association, millions of people all over the 
country have taken to the streets calling for a restoration of 
democracy. A general strike was called for days after the coup and has 
been successful in grinding the economy to a near halt. Not knowing how 
to fight these weapons of peace, the junta has responded in much the 
same way it has for decades against ethnic groups throughout the 
country, including the Rohingya, with brutality and violence.
    On the question of how to seek justice for the Rohingya, and I 
would broaden that to all of the people of Burma who have come under 
attack by the military. One option is for the U.N. Security Council to 
refer the situation in Myanmar to the International Criminal Court so 
that these crimes can be investigate and those who are responsible 
prosecuted. That outcome is at this time unlikely given that Russia and 
China would probably veto such a proposal. In lieu of that, I have 
encouraged nations around the world with universal jurisdiction 
provisions of law to bring crimes against humanity and genocide cases 
against the Burmese military leadership in their own courts. We have 
seen this tack employed in many European countries in the Syrian 
context. I believe it can be an effective route. Moreover, the Gambia 
has brought a genocide suit against the Government of Myanmar at the 
International Court of Justice for its atrocity crimes against the 
Rohingya. The United States could consider signing on to this case.
    And finally, with respect to the nearly one million Rohingya 
currently languishing in refugee camps in Bangladesh and in internally 
displaced persons camps inside Burma, the junta claimed that they will 
continue repatriation efforts of the Rohingya from Bangladesh and that 
they will pursue the return of Rohingya IDPs in central Rakhine State 
in an ``instant manner.'' This is deeply disturbing as this is the very 
same leadership that oversaw the slaughter and displacement of the 
Rohingya.
    In reality, Rohingya civilians displaced by mass atrocity crimes in 
2012, 2016, and 2017 appear no closer to returning home to rebuild 
their lives. The same would apply to Arakanese (Rakhine) and Chin 
civilians displaced by armed conflict in recent years in Rakhine State. 
Moreover, a quick repatriation of Rohingya to Rakhine State under 
current conditions would conflict with the principles of a safe, 
dignified, voluntary, and sustainable return. But the Rohingya need our 
support. Just this week, massive fires at camps in Cox's Bazaar, 
Bangladesh resulted in the destruction of over 10,000 shelters, 
confirmed deaths of 15, with over 400 missing and 500 injured.
    Mr. Chairman, the people of Burma are rising up from all walks of 
life, every ethnic and religious background, and from every corner of 
the nation as a diverse yet powerfully unified whole. They are doing so 
to demand democracy, human rights, an immediate end to the violence and 
an end to an illegitimate junta. The nonviolent civil disobedience 
movement, or CDM, is drawing its growing, organic power from the 
unrelenting commitment of the Myanmar people. But, they need our help 
and they need it now.
    Mr. Chairman, it is my sincere hope that the United States and the 
international community will rise to the occasion of this historic 
moment, that we will follow the lead and inspiration of the people of 
Myanmar and that we will join together in support of their courageous 
struggle for justice, democracy and their children's future. They 
deserve no less.
    Thank you.

----------------
Note

    \1\ Nothing in these remarks should be understood to be a waiver, 
express or implied, of the privileges and immunities of the United 
Nations, its officials or experts on mission, pursuant to the 1946 
Convention on the Privileges and Immunities of the United Nations

    Senator Markey. Thank you, Congressman Andrews and thanks 
for all your great work.
    Next, we are going to hear from Ambassador Kelley Currie, 
who served as U.S. Ambassador-at-Large for Global Women's 
Issues and the U.S. Representative at the United Nations 
Commission for the Status of Women.
    Welcome, Ambassador.

  STATEMENT OF HON. KELLEY CURRIE, FORMER U.S. AMBASSADOR-AT-
                LARGE FOR GLOBAL WOMEN'S ISSUES

    Ambassador Currie. Thank you, Chairman Markey and Ranking 
Member Romney, and the rest of the subcommittee for giving me 
this opportunity to appear before the committee today on this 
timely and important topic.
    With your permission, I would like to enter my full remarks 
into the record and to note that I am testifying in my personal 
capacity today.
    The past few months have been a heartbreaking and 
exhilarating time for the Burmese people at the same time. As 
other speakers have noted, this coup laid bare the dark heart 
of the Tatmadaw and showed us that after seven decades of 
dominating Burmese politics, the economy, and society, they 
have not given up power or the will to it, and that what they 
called their plan for a disciplined flourishing democracy, 
which those of us who live in a democracy know is a great 
oxymoron, it really was more about the discipline and less 
about the democracy.
    The Burmese people have made it very clear they are not 
going to go back, however, to military rule and they have, as 
everyone noted, effectively organized themselves to resist 
through a combination of street protests and this amazing civil 
disobedience CDM movement.
    If I had one word that I would use to describe this 
movement in all of its facets it would be inclusive, which is 
both ahistorical for Burma, as Ambassador Keshap noted, and 
essentially the diametric opposite of how the Tatmadaw thinks 
and operates.
    The young people, civil servants, factory workers who have 
been at the forefront of both the street protests and the CDM 
movement, and they cut across class, geographic, ethnic, 
religious, and generational lines in a way that is totally 
unprecedented for Burma.
    The ethnic nationalities and women who have also played 
critical roles as organizers and frontline leaders is also very 
different from what we have seen in the past. This has fomented 
an increased awareness among the Bamar nationally, the majority 
that is primarily in the cities, and raised for them an 
awareness and empathy for the situation of ethnic minorities 
and other disadvantaged groups in Burmese society who have 
fared even worse than they have under military rule.
    And this has been one of the most important and, I think, 
under commented on facets of this resistance movement, and it 
has opened up some critical dialogues within Burmese society 
about the nature of the state and the nature of the nation and 
how--and the things that had previously been dismissed as 
untimely or indelicate to talk about.
    So this has also been linked up with this technology 
explosion in Burma that has allowed these young people to 
connect not only with each other but with regional partners and 
become part of what is called the Milk Tea Alliance with Hong 
Kong and other activists who are similarly fighting against 
authoritarianism.
    So it has been a really remarkable time. But as we know, 
the Tatmadaw has sharp teeth and they are baring them now. As 
their hold on the country has weakened, they have escalated the 
violence.
    Martial law is spreading across the major urban areas. 
Others have talked about the brutality and mentioned the 7-
year-old girl who was shot while she was being held by her 
father.
    I would also call attention to the death in detention of 
two Muslim NLD local officials who, apparently, were tortured 
to death and some of the--with some of the most medieval and 
horrific things we have--you know, I have ever seen in 25 years 
of working on human rights.
    So some--but what has been also interesting is the response 
from the NLD. With most of the senior leadership in prison, the 
younger members have coalesced and worked together across these 
multi-ethnic and multi-dimensional assets--facets of this 
movement to form a united front, and that is also new.
    I want to quickly highlight before I run out of time the 
three things that I think the international community should be 
focusing on in their response, and there is more about this in 
my written testimony.
    The first is around recognition and legitimacy. Deny the 
junta legitimacy and recognize the legitimacy of the democratic 
and independent movement that is taking place among the people.
    Second, cut off the money supply for the junta, as we have 
discussed in other--with other witnesses, and the oil and gas 
is critical to that.
    And then third, we need to move the Security Council 
resolution. That is critical to be able to get an arms embargo 
in place and that is--when you talk about things that the junta 
is not expecting to happen, that is at the top of the list. 
They believe China will continue to block it.
    But, really, we are just holding ourselves back from even 
pursuing it due to the fear of a veto threat. We should stop 
that right now and get working with the U.K. and others on 
changing that dynamic.
    With that, I am happy to take your questions and get into 
some of the more--get into some details on how we can move 
forward together with the Burmese people and align ourselves 
with them instead of their oppressors.
    Thank you.
    [The prepared statement of Ambassador Currie follows:]

           Prepared Statement of Ambassador Kelley E. Currie

    Thank you Chairman Markey, Ranking Member Romney, and the rest of 
the subcommittee for giving me the opportunity to appear before the 
committee today on this timely and important topic. The past 2 months 
have been both a heart-breaking and an exhilarating time for the 
Burmese people. The February 1 coup once again laid bare the dark heart 
of the Myanmar armed forces--the Tatmadaw--who have dominated the 
country for the past seven decades and was a devastating setback to the 
Burmese people's aspirations to continue their halting and hard-won 
progress. After 10 years of expanding freedom and openness, the Burmese 
people are strongly resisting a return to military rule. Hundreds have 
died and thousands have been arrested due to Min Aung Hlaing's vanity 
and arrogance. The Burmese people's awe-inspiring bravery and defiance 
in the face of brutal and sustained violence has earned them regional 
and global admiration and support.
                        same same but different
    Since February 1, there has been a strong tendency among both 
Burmese commentators and long-time Burma watchers to debate how this 
latest chapter in Burma's struggle for democracy compares to previous 
ones. While understandable, such debates have often obscured more than 
they revealed. The 2021 Spring Revolution movement has been 
characterized by optimism, creativity, public-spiritedness, and 
inclusion. From self-organized neighborhood watch groups to bank 
employees refusing to show up at work to protestors dressed in ball 
gowns, the people are actively resisting and effectively using social 
pressure to undermine the regime's authority. Their fluency with 
information technology and social media savvy has allowed them to stay 
one step ahead of the junta's Internet outages and censorship efforts. 
It has also allowed them to connect with and learn from their fellow 
democracy activists across the region, adding to the burgeoning ``Milk 
Tea Alliance.''
    The combination of persistent, nationwide street protests and the 
stay-at-home/non-participation of the Civil Disobedience Movement have 
tested the junta's ability to retain control of the country. Young 
people, civil servants, and factory workers have been at the forefront 
of both street protests and Civil Disobedience Movement (CDM), and the 
opposition to the military coup has cut across class, geographic, 
ethnic, religious, and generational lines in unprecedented ways. 
Protest and CDM organizational structures are flat, flexible, and 
decentralized. Ethnic nationalities and women have played critical 
roles as organizers and frontline leaders. This diversity of leadership 
not only has led to clever protest memes such as the use of women's 
dirty longyis to taunt superstitious soldiers, but it has also opened 
up dialogues about critical nation-building and societal issues that 
have long been suppressed as untimely or indelicate. This increased 
awareness of and empathy for the situation of ethnic people among the 
largely Burman urban protestors has been one of the most remarkable and 
important features of this resistance movement.
    After initially showing some restraint as protests grew, the 
Tatmadaw has responded to the people's aspirations for freedom, 
democracy, and human rights with its usual formula of terror, murder, 
and repression. They have attempted to instill fear across the 
population through mass arrests, enforced disappearances, and both 
random and targeted killings. At least 23 of the more than 250 victims 
have been under the age of 18, including a 7-year-old girl who was shot 
in her Mandalay home as she sat in her father's lap. Others were 
specifically targeted to send a message, including the grisly murders 
of two NLD local officials. Thousands more have been detained, mostly 
incommunicado, and subjected to severe abuse and torture. These actions 
are taking place in an increasingly restricted information environment, 
as the junta has extended the daily Internet and mobile wi-fi 
shutdowns. Media organizations are being systematically targeted, with 
individual journalists arrested and licenses revoked. This leaves the 
junta free to use its state-controlled media to broadcast lies and 
misinformation designed to demoralize and divide the population.
    In the meantime, martial law is spreading across the country's 
major urban areas and the economy--already weakened by COVID--is 
circling the drain. Development gains of the past decade have 
disappeared overnight, as the World Food Program reports spikes in 
childhood malnutrition and food insecurity. Conflict areas have seen 
some of the worst effects, as humanitarian access was one of the first 
casualties of the coup. While the junta insists Burma is open for 
business as usual, there are very few takers and even Japanese 
businesses--traditionally the last Western investors standing, are 
packing it in.
                    discipline flourishing autocracy
    The Tatmadaw's ostensible justification for this coup was the abuse 
of democratic processes by the National League for Democracy (NLD). The 
NLD's November 2020 landslide election victory appears to have 
convinced Min Aung Hlaing that Burma had taken a wrong turn on the road 
to what the Tatmadaw likes to call ``discipline-flourishing 
democracy.'' Detained NLD leaders Daw Aung San Suu Kyi and U Win Myint 
face a growing list of charges, ranging from the spurious to the 
existential. The prosecutions have been almost comically irregular at 
times, but the ultimate intent is quite serious: disqualifying the NLD 
from participation in any future electoral exercise. The junta has 
claimed that they intend to hold elections within a year, but they have 
also talked about the need to adjust the current political structure so 
it cannot be dominated by a single party--at least not one the military 
doesn't control.
    With the party's top leadership detained, elected parliamentarians 
quickly formed the Committee Representing the Pyidaungsu Hluttaw (CRPH) 
as a kind of government-in-waiting until something sturdier can be 
constructed. Reflecting the ethos of the broader movement, the CRPH has 
been working hard to engage diverse stakeholders and build much-needed 
trust at all levels across all Burma's old fault lines. After some 
initial stumbles, the CRPH has established coordinating mechanisms for 
inclusive engagement with ethnic nationalities, civil society, 
professional associations, and other key actors. The beginnings of a 
shared program of action are taking shape, including support for 
scrapping and replacing the 2008 constitutional order with a genuine 
federal democratic union, extensive security sector reform, and 
meaningful accountability for the Tatmadaw's past abuses. Even some of 
the most country's sensitive issues--including the need to confront the 
atrocities against and redress the identity of the Rohingya people--
have seen remarkable progress over these 50 days. The CRPH has also 
been working to secure international recognition and deny the junta 
legitimacy, including by seeking defections of Burmese diplomats 
overseas and engagements with a range of diplomatic partners. Again, 
these efforts have not been perfect, but they are clearly more than 
what the coup plotters expected, and the junta have scrambled to 
respond to these asymmetric challenges with their usual toolkit of 
repression, divide-and-rule politics, and badly done propaganda.
                        circuit breakers needed
    Under the current dynamic, the people and the junta are pushing 
further apart every day, with the junta's shocking brutality and 
cynical political maneuvers up against the Burmese people's non-
cooperation and fierce demands for democratic self-governance. As Burma 
becomes increasingly ungovernable, coup leaders are likely to become 
more desperate and violent. To date, the violence has primarily served 
to solidify opposition to it, but the current level of violence is 
still relatively low by historical Tatmadaw standards. Nonetheless, 
there are already signs that escalating violence is pushing the non-
violent movement beyond its current peaceful self-defense efforts. 
Given the deep fault-lines in Burmese society, the movement's current 
level of unified effort is likely to be severely tested. A Syria-like 
scenario is not far-fetched given Burma's history of internal conflict 
and the presence of so many well-armed militias that operate under 
varying levels of state control. The military's core identity is built 
around holding Myanmar together, and they have a well-documented track 
record of attempting to do this by brute force. This is a formula for 
disaster.
    Unfortunately, the international community's response to this 
generational opportunity to break with Burma's entrenched cycle of 
dysfunction has been underwhelming. This rapidly deteriorating 
situation will not benefit from more statements of deep concern and 
pin-prick sanctions. The Burmese people are doing the bulk of the work 
and taking huge risks as a result, making the weak-kneed international 
response look even more feckless. Urgent and decisive action is needed 
to circuit break the current trajectory and give the Burmese people a 
chance at a real democratic transition and genuine nation-building.
    The Biden administration in particular has an opportunity to lead 
and, in doing so, retake the initiative in the ideational battle that 
was on display this past weekend in Anchorage. The United States should 
focus the international response around three key pillars:

    Recognition and Legitimacy. The junta craves legitimacy; the United 
States and its allies must do everything they can to deny it what it 
craves. There are a variety of ways to do this that are relatively low 
cost for us but potentially game-changing on the ground:

  <bullet> Speak clearly about the illegitimacy of the coup: The U.S. 
        led in calling the coup by its right name, and other countries 
        have taken steps in this direction. More can and should be done 
        to delegitimize the coup and its supporters through both 
        regular diplomatic and public diplomacy channels, including by 
        maintaining pressure on regional and multi-lateral 
        organizations to either disinvite junta personnel or give CRPH 
        representatives equal billing.

  <bullet> PNG military attaches at Burmese embassies: They report 
        directly back to the junta and are the instruments of coercion 
        within embassies. There is no justification for allowing them 
        to stay and their visas should have been revoked on February 1.

  <bullet> Protect and empower democratic diplomats: Countries should 
        also work with the Burmese embassy staff who espouse loyalty to 
        the CRPH to recognized as legitimate and protect them and their 
        family members in Burma from reprisals. The U.S. recently took 
        a step in this direction by extending Temporary Protective 
        Status for Burmese visa holders.

  <bullet> Reconstruct assistance pathways: Donors should work both 
        bilaterally and through U.N. agencies and international 
        financial institutions (IFIs), to restore parallel mechanisms 
        for assistance including by working with CRPH, civil society, 
        existing ethnic nationalities systems, and through cross-border 
        aid. Prior to 2010, these practices were the norm in Burma, and 
        donors have recognized the need for such heterodoxy in other 
        countries in crisis.

    Finally, governments and international organizations should work 
towards formal recognition of the CRPH and/or its successor government 
of national unity, as Myanmar's interim state authority. Part of this 
will be working with them to address accountability around the August 
2017 atrocities against the Rohingya and outline a more serious 
response to the root causes of those horrific events. This will not be 
easy, but it must be part of the bargain.
    Cut off the junta's money supply. The limited impact of sanctions 
to date should be no surprise considering the current pin-prick 
approach. The coup leaders cannot effectively control either the 
country or manage their critical internal patronage networks without 
revenue, and the U.S. and others need to be more strategic in 
leveraging the junta's need for hard currency.

  <bullet> Sanction key revenue streams: Instead of continuing to 
        slowly drip out sanctions go after the main sources of revenue 
        such as the large military holding companies and key state 
        sectors, especially in the extractive industries. This means 
        figuring out a way to cut off the flow of hard currency via the 
        Myanmar Oil and Gas Enterprise (MOGE) without simultaneously 
        cutting of the supply of refined energy back into the country.

        Specifically, the American and European partners to oil and gas 
        joint ventures with MOGE should invoke a 3-month force majeure 
        suspension of payments, and work with their governments' 
        financial authorities to establish an escrow mechanism to 
        facilitate continued contractual payments. This would force the 
        junta to take them to arbitration or refuse to take delivery of 
        refined fuel.

  <bullet> Friends without benefits: In addition to military leaders, 
        individual sanctions also should target key civilian cronies 
        enabling or benefitting from the coup. Top of the list should 
        be the head of Kanbawza (KBZ) Bank, Aung Ko Win, who is Min 
        Aung Hlaing's golfing buddy and the financier of choice for his 
        children's business enterprises.

  <bullet> Look beyond sanctions: International partners should also 
        use and aggressive enforcement of laws on money laundering and 
        the illegal trade in extractive products such as timber, and 
        gemstones. These revenue streams are dirty in every sense of 
        the word; they not only are environmentally devastating and 
        drivers of criminal activity, but they primarily enrich the 
        elite while providing little meaningful benefit to the Burmese 
        people. The U.S., the U.K., and E.U. should work with and, if 
        necessary, put pressure on financial institutions in Singapore 
        and Hong Kong to examine their accounts for junta and other 
        illicit activities.

    Move a Security Council resolution. The failure to do anything 
beyond issue ineffective statements is daily undermining the 
international community's credibility and increasing the likelihood of 
broader violence. Nowhere is this more obvious than the ineffective 
approach of the U.N. Security Council. The UK and the United States 
wasted their respective February and March Council presidencies 
negotiating feckless statements that the junta promptly ignored. Their 
desire to have the Council continue to ``speak with one voice'' has 
been a serious strategic mistake. Since August 2017, this approach has 
given China and Russia an unwarranted upper hand in Council 
negotiations on Burma, and they have used it to cow like-minded 
countries toward inaction.
    The like-mindeds should stop letting a veto threat keep them from 
acting. An open vote on a resolution forces China and Russia into a 
choice both have been strenuously avoiding, to either stand with the 
Burmese people or protect the junta. Unlike Russia, whose primary 
interests in Burma revolve around selling weapons and thriving on 
chaos, China has significant economic and strategic interests on the 
ground. Beijing worked hard to cultivate the NLD's blessings for its 
massive China-Myanmar Economic Corridor infrastructure plans, and 
effectively leveraged Aung San Suu Kyi's approval to manage what would 
otherwise be deeply unpopular projects. Since the coup, China's tone 
deaf and self-interested response to the violence and predation of the 
junta has enflamed Burmese public anger. The Tatmadaw--which anyway has 
no love for the Chinese--will remain largely transactional in its 
approach to Beijing and historically has proven very adept at playing 
off its big neighbor.
    Much as China dislikes the prospect of Security Council action in 
response to the coup, they are rapidly approaching a tipping point 
where their attempts at neutrality and non-interference are 
increasingly unsustainable. With India and Vietnam currently serving on 
the Security Council, there are opportunities to use skillful diplomacy 
to leverage other regional dynamics that could box China in further. 
Russia is unlikely to veto on their own and will be especially 
reluctant if its other regional partners are inclined towards action. 
With so many competing strategic imperatives in play, a Chinese veto 
should not be assumed.
                            core principles
    Such a robust approach must be underpinned with a recommitment to 
placing key principles of human rights and democracy at the center of 
U.S. policy on Burma. Today, Burma is ground zero in the ideational 
battle that the United States and other democracies are facing around 
the world. Every day, Burmese people are risking their lives to fight 
for a different future for their country. They have embraced a 
democratic, rights-respecting, sovereign, inclusive, self-governing 
future. They are at an inflection point where self-reflection and 
shared sacrifice are leading to progress on addressing those issues 
that have held Burma back, especially with regard to the integration of 
the Rohingya into the broader nation-building project that is quietly 
underway.
    These same issues have also challenged the United States and others 
to develop a comprehensive policy approach rooted in human rights and 
democratic values. In contrast to the promise of this moment, sticking 
with a conservative policy approach of hedging our bets dooms us to 
accept a failed or at least flailing Burma as an acceptable outcome. 
Finding a way to both support democratic aspirations and heal this deep 
wound would be transformational for everyone involved, and such 
opportunities typically are rare and fleeting. We should be exploring 
every possible means to support this process, not just because it is a 
reflection of our own nation's core values but because a different kind 
of Burma will be a better partner in every possible way, especially 
when the alternatives are a return to military rule or worse, a failing 
state.
    The Biden administration has an historic opportunity to contribute 
to this potential path-breaking moment in Burma. The Burmese people 
have shown they are willing to do the work and make incredible 
sacrifices to change their fate. We should not be constrained by the 
soft bigotry of low expectations that arise from Burma's bloody 
history. We should instead be doing all that we can to support the 
aspirations of the Burmese people to write their own future. This is 
especially true when the relative near-term costs to us are so low and 
the potential downstream benefits are so great. Caution and 
deliberateness in foreign policy are generally good qualities. But 
excessive caution has real opportunity costs that are often 
underweighted when decisions are considered--leading us to calibrate 
past the point when doing something could help. When this happens, it 
only ever benefits the bad actors and makes the next set of decisions 
more costly with worse options.
    Today, we have that rarest of circumstances where the core values 
of the United States and other democracies are aligned with both our 
interests and the aspirations of the Burmese people. This is one of 
those moments where the risks of taking action are far lower than the 
costs. Even if the prescribed actions do not immediately result in the 
removal of the junta, we will have put ourselves on the side of the 
people instead of their oppressors. And that alone should be enough of 
a reason to do the things we can.

    Senator Markey. Thank you, Ambassador Currie. Let me begin 
by asking each of you about a sector that you both mentioned, 
oil and gas.
    Unfortunately, across the country we can see very 
frequently that the leaders of Burma, become very dependent 
upon these oil and gas revenues in some cozy relationship with 
those industries.
    Let me go to you first, Tom. What is your recommendation 
for what we would call for in terms of a cut off of those oil 
and gas revenues to the leaders of Burma?
    Mr. Andrews. Thank you, Chairman Markey.
    You are exactly right. This is the single largest source of 
revenue flowing into the hands of these criminals. So I think 
it is critical that we cut it off.
    Now, I want to point out that over 440 organizations, civil 
society organizations throughout Burma, have called for this to 
happen. They say that it is vitally important for the revenue 
being flowed into the junta's hands from oil and gas, 
particularly, the Myanmar Oil and Gas Enterprise, to be cut.
    Ambassador Keshap said he was concerned about the impact on 
the people of Burma and, of course, we are all concerned about 
whatever steps we take and our impact on the people. The people 
of Burma want this, and the United States can apply these 
sanctions in such a way, using the Treasury Department's 
licensing power, to make sure that the gas continues to flow 
but that the revenue stream from these--from oil and gas to the 
junta stops.
    That is what we want, that can happen, and, more 
importantly, that is what the people of Myanmar are demanding, 
including the elected leaders of Myanmar.
    Senator Markey. Thank you.
    Let me come back over to you, Ambassador Currie. Can you 
follow up on what Tom Andrews just mentioned in terms of 
protecting against a humanitarian consequence as a result of 
cutting off oil and gas revenue?
    Ambassador Currie. Well, a humanitarian disaster is already 
unfolding in Burma because the people of the country are 
intentionally shutting down the economy themselves in order to 
punish the junta and cut off its internal streams of revenue 
and to resist it, and to make the country essentially 
ungovernable.
    That is their whole strategy at the moment. So I think we 
should--you know, while we always want to avoid unintended 
consequences and do things that we can to try to maintain 
humanitarian pipelines, I believe that there are ways, as Tom 
has said, to do that in this situation.
    First of all, using the licensing capabilities that 
Treasury has and working with--there are only a few companies 
that are part of a joint venture with the Myanmar Oil and Gas 
Enterprise that is based in Thailand, that is--that provides 
most of the revenue, and there are things that we can do.
    The companies themselves are at risk of breach of contract 
unless they are forced to do something different. So the 
sanctions actually provide force majeure for them to suspend 
the normal payments--normal payment stream and put it into an 
escrow account so that they continue to make contractually-
obligated payments while the--and that keeps the joint venture 
going.
    The other thing that can be done is working with our 
partners in Thailand who are the other joint venture on this to 
make sure that the oil and gas continues to flow.
    Then it would be up to the junta if they decide to refuse 
taking custody of the--of the oil and gas shipments, that is on 
them and there is nothing we can really do about that.
    But there are ways to do this, and then we also have to 
think about cross-border assistance and renewing old habits 
that we used to have with Burma where we went around the 
government to provide assistance to the people in the past 
before 2010.
    Senator Markey. Thank you, Ambassador.
    Let me just follow up on that. The architect of the 
genocide against the Rohingya now is in charge of the country, 
and there are still 600,000 Rohingya inside of Burma.
    Let me come back to you again, Tom Andrews, and ask you 
what should we be doing to ensure that there is a coalition of 
countries that is working to protect those 600,000 who still 
remain inside of Burma?
    Mr. Andrews. Thank you, Chairman Markey.
    You are exactly right. They are very vulnerable. We know 
just over the last year 33 Rohingya have been killed, just this 
past year. This is since the atrocity crimes committed in 2017.
    So you are exactly right. I think what needs to happen is a 
very tough clear sanctions policy, but more importantly, on top 
of that a coordinated focused diplomatic initiative and 
emergency summit that includes precisely that issue, but then 
all the issues. Put them on the table and have those with an 
interest in moving forward move together.
    Senator Markey. Okay, thank you.
    Let me recognize Senator Romney.
    Senator Romney. Mr. Chairman, and I would note that I have 
voted. So if you need to run and vote--I am in my hideaway so I 
was able to vote quickly. If you need to run and vote, feel 
free to do so. But I will be here asking some questions and 
turn to other members if they are here.
    Senator Markey. Okay. Please continue. No, I have done the 
same sprint that you have. So I am all set, too. Thank you.
    Senator Romney. Okay. Good. Just a couple of things, which 
is to both of you, Ambassador and Congressman Andrews.
    How is the sanction system you are describing different 
than what we have done in the past when this military was 
running the country and we were protesting the genocide against 
the Rohingya?
    How is what you are describing different than what we have 
done before, which did not yield a change in result? And I note 
that because we put in place crippling sanctions, for instance, 
on Venezuela, as we discussed with the last panel, and yet, 
Maduro is still there.
    And, you know, we put crippling sanctions on Iran and yet 
the leadership is still there. And so, first, how is this 
different than the past, and number two, do you think we can 
carry out a change of behavior without getting China to also 
participate?
    Ambassador Currie. If I can go ahead and take that first. I 
think that, first of all, actually, the sanctions before did 
have an effect because there is a lot of literature that says 
that the changes that took place in 2008 and 2010 were as a 
result of the isolation that the junta felt and that they had 
become overly dependent, in their own view, on China, were not 
comfortable with that.
    There is no love lost between the Tatmadaw and Beijing at 
all. Quite frankly, they are actually not really very good 
friends. It is very transactional and about mutual--and about, 
you know, about transactions and benefits but not about any 
sense of brotherhood or friendship.
    So they wanted to be able to have more engagement with the 
West and that is why they did a lot of the things they did 
between 2008 and 2012 which led to the lifting of sanctions, 
which they stated very explicitly was something that they 
wanted and needed to happen. They wanted Western engagement.
    So I think that they do feel it. They can go for a long 
time, though. They did show that. What we are doing differently 
this time is that it is more targeted, as Atul Keshap 
mentioned, and we have a lot more information about how the 
economy works and show we can actually go after specific nodes 
within the economy that harmed the junta more than they harmed 
the people.
    I think also here we have a very clear demonstration from 
the Burmese people that they want these sanctions. It is very 
plain. And so I think that you are right, we do need China to 
cooperate.
    China is in a very difficult position right now because 
they have a lot of assets on the ground that they are defending 
through the Belt and Road and the China-Myanmar Economic 
Compact that they have negotiated, and they have strategic 
interests in Burma that they need to protect.
    And they had benefited from the past arrangement of the 
past 10 years as well, and so they are not entirely happy about 
what is going on and all the instability, but not enough to get 
off the fence right now and get out of their usual 
noninterference mode.
    Senator Romney. Thank you.
    Tom?
    Mr. Andrews. Yes, Senator. Let me just say I think that 
about Ambassador Currie is exactly right. Sanctions can work, 
focused targeted sanctions. That is what we are calling for. 
That is what the people of Myanmar are calling for.
    But you are right, sanctions alone is not going to work. We 
have to combine sanctions with a very public, very visible 
diplomatic effort. Indonesia and Malaysia have both called for 
an emergency summit on Myanmar.
    China has expressed its concern about what is going on. 
They say this is exactly not what we want. They say that they 
want to see the release of political prisoners in Myanmar. They 
have a great deal of interest in seeing a resolution to the 
crisis in Myanmar.
    So I think there are many players, many countries in the 
region and beyond the region that have a stake in this or care 
deeply about the principles and values that are at stake here 
who would want to cooperate and come together.
    But it is going to require organization and coordination. 
We have a hodgepodge of sanctions, a hodgepodge of arms 
embargoes. They have to work as a coordinated powerful whole, 
and they are not.
    So I would strongly urge that the United States organize 
this coordinated effort along with our allies in the region so 
that we can see the kind of results that I think are possible.
    Senator Romney. Thank you so much. I am just going to ask 
one more question, and that is, I think, to Ambassador Currie 
and that is you made the point that we worry about a Security 
Council vote because China might veto it.
    And I am interested in, perhaps, you elaborating on why 
that should worry us. I can think of some reasons why we might 
not want that. We may want, for instance, China to participate 
in this kind of gathering of a global effort and if we 
embarrass them somehow at the U.N., why, they may not want to 
be part of that.
    But I am interested in your thoughts. Because that is one 
side. The other side might be that we want them to be 
embarrassed.
    You know, we will let them stand up and veto a resolution 
of the Security Council so that we can communicate throughout 
the region that China is complicit with the outrageous abuses 
which the entire region is watching in Burma.
    But so, Ambassador--and Tom, certainly, interested in your 
thought as well--but why not proceed with a Security Council 
resolution and see how China responds?
    Ambassador Currie. Thank you, Senator, for the question.
    I actually believe we should have done one immediately and 
we should have instead of messing around with statements that 
the junta, clearly, disregarded and actually escalated violence 
immediately after two Security Council statements.
    I think that the UK, which is the traditional Penholder, 
should have moved forward immediately. But there is this 
fiction within the Security Council that we all need to speak 
with one voice on Burma, you know, all the P-5 especially.
    What this has allowed China and Russia to do is hold the 
Council hostage on Burma. They did it in 2017 after the 
genocide of the Rohingya and they have been doing it ever 
since. And the problem is that when this goes on like this, 
China does not pay any meaningful costs for refusing to do the 
right thing here.
    Our options are constrained but China is outcome neutral on 
what kind of government there is in Burma. They will deal with 
anybody. They do not care if they commit genocide. They are 
committing genocide themselves, so why would they care if the 
junta is?
    So there is--but as long as they do not have to make a 
choice and do not have to take a stand, they are getting away 
with doing this scot-free.
    As long as they can keep everything in the backroom, 
negotiate statements, and not have to publicly stand up and 
say, yeah, we are going to stand with these guys, these 
genocidal coup plotters--that is our team--as long as they do 
not have to do that they are getting away with this and the 
costs are relatively nothing for them.
    But they do have strategic interests. The people on the 
ground are getting angrier and angrier at China. There has been 
violence against Chinese factories.
    Debatable about who instigated it, but the Chinese do not 
want to be in a position where everybody, especially the 
younger generation of the Burmese people, hate their guts, 
which is currently the direction that they are headed in.
    Senator Romney. Thank you.
    Congressman?
    Mr. Andrews. Yes, Senator, there is no question that the 
Security Council should act, and the benefits of that are many 
but it includes the coordination that I am talking about could 
be done in this Security Council and accountability measures 
could also be established through the Security Council. So that 
is definitely what we should be moving toward.
    But in the meantime, as we do this, we can also work 
together with those countries who are willing to put forward 
sanctions and accountability mechanisms. We have an opportunity 
to move them together and in a coordinated fashion to move an 
emergency summit forward.
    So I say let us do both. Let us move forward with the 
Security Council but let us also work together with our ASEAN 
friends and other nations of the world to coordinate sanctions 
and accountability measures that are available right now.
    Senator Romney. Thank you very much. Appreciate the 
testimony that both of you provided.
    Mr. Chairman, I yield to you.
    Senator Markey. Okay, thank you so much. And I now turn to 
recognize Senator Merkley from Oregon.
    Senator Merkley. Greetings, everyone, and I am sorry that 
other conflicts prevented me from being here at the beginning.
    As you know, I have a deep interest in what happens in 
Burma. After the genocidal activity against the Rohingya, I led 
a delegation. Senator Durbin came with me, a number of House 
members came to follow up on Aung San Suu Kyi's statement that 
she had nothing to hide, the country had nothing to hide, and 
of course, they had a lot to hide.
    And just the day before we left, they canceled our ability 
to visit the affected villages. We still did see quite a lot, 
though, and all of it was disturbing, including going to 
refugee camps in Bangladesh.
    So the questions I am about to ask may have been already 
answered, and my apologies. You can give brief answers and I 
will follow up with my team to get more information.
    But I was delighted to see the Biden administration expand 
sanctions to include the military-owned enterprises, 
specifically the Myanmar Economic Corporation and the Myanmar 
Economic Holdings Limited, today.
    And but another piece of the puzzle is the Myanmar Oil and 
Gas Enterprise, and while I realize that our witnesses in the 
second panel are not representing the Administration, I want to 
get their opinion on whether the Biden administration should 
ensure that companies like Chevron do not make payments of 
royalties and other revenues to the Myanmar Oil and Gas 
Enterprise and instead make those payments into protected 
accounts until there is a democratically-elected government 
restored.
    Mr. Andrews. Well, Senator Merkley, let me just say, first 
of all, it is wonderful to see you and I want to recognize and 
thank you for your strong, strong leadership for human rights 
and justice in Burma.
    And I would answer your question an emphatic yes. We have 
discussed it. Chairman--the chairman has brought this up 
already and we have talked about it extensively.
    I think that it can be done, that it should be done, and it 
can be done in such a way that it does not impact the people of 
Myanmar, and that is through the Treasury Department
    Senator Markey and others have expressed their concern and 
questions about this very subject.
    Senator Merkley. Great. Thank you very much.
    And, Ms. Currie, is there anything you would like to add to 
that?
    Ambassador Currie. Chair, it is wonderful to be in front of 
you today and not facing confirmation, I will say that.
    [Laughter.]
    Ambassador Currie. And so I am happy to be able to say an 
unreserved yes, we should be moving forward expeditiously with 
sanctions on MOGE and moving forward with them, the companies 
that are involved in the joint venture, to ensure that the 
payments not just through sanctions, but also we should be 
using money laundering and other laws of general application 
that can be used to target not just oil and gas but other 
extractive industry revenue streams that are coming in and out 
of the country.
    And those can be--we can do those right away with 
Singaporean banks and with others where the external dollar 
accounts are being held by the junta.
    Senator Merkley. You know, I am thinking back to that time 
when the genocidal activities occurred against the Rohingya 
and, of course, it was part of a series of activities and there 
were also other actions against other ethnic groups.
    So I do not want to ignore those. But the massive action 
against the Rohingya and just cultivation of hate against them 
for so many years, and going back to the mid-sixties with the 
first military coup, they became the target and were steadily 
deprived of documentation to be legitimate members of society 
and then squeezed into quarters.
    To visit the Sittwe Muslim Quarter is to have chills go 
down your spine. The Muslim community is not allowed to leave 
the boundaries of a certain set of square blocks. It has echoes 
of German enterprises in the thirties and forties against the 
Jews, and the people cannot even leave that to go to the nearby 
hospital.
    They have to get permission to go outside of Sittwe to a 
rural clinic to get a reference to come back to the city and 
get to a hospital. Getting teachers in and out was very hard, 
and they were only surviving because of the repatriated funds 
from the Diaspora, the Rohingya Diaspora, primarily from Canada 
because of our own restrictions on funds going to Muslim 
organizations.
    But when I think about that, I thought the moment that we 
failed to take a strong, strong stand, we did so little during 
the Trump years. We did not declare it a genocide and we did 
not immediately lead the world in action and response.
    It was here in the Senate difficult because the majority 
leader at that moment, our now minority leader, felt that he 
wanted to defend Aung San Suu Kyi from criticisms. So the 
Senate did not act. The Executive did not act.
    I still think we do not--I do not think we yet got from our 
State Department of the new Administration a genocide 
declaration, and do you all feel that that is merited and 
should come forthwith?
    Mr. Andrews. Well----
    Ambassador Currie. I can--yeah, go ahead, Tom.
    Mr. Andrews. Senator, let me say, first of all, that there 
is a lot that should have been done, that could have been done. 
And let me tell you right now that there are 600,000 Rohingya 
citizens living in Rakhine State in Burma.
    They are in danger, and among them there are over 130 that 
are living in internment camps. They are called IDP camps, but 
they are internment camps really----
    Senator Merkley. Yes, they are.
    Mr. Andrews. --surrounded by military. They are living in 
horrible conditions. I know you have seen them. I have been 
there. Those conditions have not improved or changed, and even 
those outside of those camps are living in villages that are 
surrounded by the military and their movements are severely 
restricted.
    They cannot leave their village without express permission 
by the military. That continues today, and as Senator Markey 
said at the outset, the very leadership that was responsible 
for those mass atrocity crimes in 2017, that was genocidal 
attacks, those very same leaders are now in control of the 
country.
    So we need to have a very aggressive, strong, principled 
stand and not just words but action that can mobilize the 
region and the world with us to put maximum pressure on this 
junta and save these people who are in great jeopardy, and also 
save those throughout the country, the 54 million Burmese 
citizens who are also in great jeopardy right now.
    Senator Merkley. Tom, that is so true, and part of the 
challenge with repatriation is if people were repatriated they 
would be repatriated to so-called--what the Burmese called 
model villages, which means internment camps.
    Mr. Andrews. That is correct. That is correct.
    Ambassador Currie. Yes. Yeah.
    Senator Merkley. Ambassador?
    Ambassador Currie. Yes. So thank you for your consistent 
and outspoken advocacy on this issue.
    As you know, this is something that there was a lot of 
discussion internally within the Administration and a very 
fierce debate about, and I--you know, personally, I advocated 
very strongly for action and at times we were able to get 
certain things to move, such as the sanctions on Min Aung 
Hlaing and Ko Win and the senior leadership, where the United 
States was the only country in 2019 to have sanctioned the 
senior military leadership in response to the ethnic cleansing 
and the atrocities, which I believe were a genocide and crimes 
against humanity in Rakhine State and against the Rohingya.
    So I think that we--and it is--it was deeply frustrating 
and it continues to be deeply frustrating that we failed as a 
community, as an international community to respond 
effectively.
    I watched it unfold in the U.N. and the Security Council 
every day from August 2017 until the day I left at the end of 
2018 the incredible failure of the response to these horrific 
atrocities, and there is no other word for it.
    It was a collective failure on all of our part, and it was 
in large part due to this tension that you highlight about 
wanting to ``protect'' this democratic transition that was 
never, again, really a democratic transition.
    It was a degree of civilianization, as I mentioned before. 
But, and to protect that process while--and trying to balance 
those concerns and also within the United States Government, 
certainly, concerns about pushing Burma closer to China were 
also very prevalent as a competing policy imperative that was 
used to kind of argue the issues about what is the foreign 
policy objective here.
    So and I--you know, I do not know the degree. I am not 
involved in the current discussions. But I know that a lot of 
the work has been done, and should the Administration seek a 
determination, the work has been done for them to be able to do 
that.
    What is the most remarkable thing, though, that I am seeing 
and which I think is very helpful, because if you do want 
people to return to something other than a horrific situation 
inside the country, the issues around identity and security for 
the Rohingya need to be addressed, and we are seeing that 
actually happening within the movement against the coup.
    And it is really kind of remarkable, some of the 
conversations that I have seen, the degree of empathy, the 
willingness to call the Rohingya by their right name, to 
acknowledge what happened to them by members of the NLD, by 
members of the committee representing the Pyidaungsu Hluttaw, 
which is the kind of interim government that the NLD formed, 
and a real openness to talk about these issues that is not 
the--has not been the case for the past 4 years.
    And that is the basis on which sustainable safe voluntary 
returns are going to be possible is addressing these root 
causes of second class citizenship and systemic racism within 
Burmese society and the thwarted state and nation building 
process that has been interrupted by 70 years of military rule, 
almost, as you know, since the sixties during the first--from 
the first time Ne Win launched a coup in 1962 until today.
    Burma has not developed a national identity rooted in 
anything other than Bamar Buddhist chauvinism and a unitary 
military mindset.
    And they--you know, it is 2021. We have got to--this 
country has got to build a different--it is a multi-ethnic, 
multi-confessional country. That is not an appropriate fit.
    And so the focus on federal democracy, the focus on 
addressing on accountability issues within the anti-coup 
movement has been really remarkable and it is one of the most 
important things that is happening, and it is so unusual.
    Senator Markey. Thank you, Ambassador.
    Senator Merkley. Thank you very much, Mr. Chairman.
    Senator Markey. Thank you, Ambassador.
    If I may just ask a couple more questions. You may as well 
have a few more questions, Senator Romney, and you too, Senator 
Merkley.
    I would like to come back to the Security Council because, 
obviously, the Chinese have business interests. They are the 
largest single outside business interests inside of Burma, and 
the Burmese army have a business interest too. So what we have, 
essentially, is the Chinese army business corporation doing 
business with the Burma Corporation, run by the army.
    It is just two armies that have a business interest. In 
going to the Security Council, we would be able to put a 
spotlight on that.
    Why is China trying to veto a Security Council resolution? 
Could you talk about that, Tom, and in terms of our ability? 
Just spotlight what this corrupt relationship actually means 
for the ordinary people inside of Burma.
    Mr. Andrews. Well, Mr. Chairman, I think it is important to 
move this forward in the Security Council because that is the 
proper venue for this.
    Now, of course, as the Ambassador said, there has been 
reluctance to move measures that will not have complete 
consensus among the members of the Security Council. There is 
always concern about vetoes always when we talk about these 
sensitive issues.
    But I think it is worth putting it forward. I think it is 
worth having an honest and open debate. I think it is important 
for nations to step up and be counted one way or another.
    Listen, there is just too much at stake in this country, 
too much suffering going on right now, too many lives that 
could be lost very, very soon unless strong action is not taken 
by the international community and the Security Council.
    This is a security issue, if I have ever seen one, and it 
demands the attention of the world at the highest levels. But 
as we move forward, let us simultaneously not hold back would 
be excuse, well, that is something for the Security Council, 
nothing for us to do unless they move.
    Let us ourselves move with the region and all of those who 
are willing to work with us in coordinated sanctions, arms 
embargo, and other measures that will put the pressure on where 
it is needed.
    Senator Markey. Okay. Thank you.
    Back to you, Ambassador, if you could just expand a little 
bit on this identification of the Chinese army business 
interests partnering with the Burmese army business interests, 
and using the Security Council as a way of spotlighting that 
and the arms embargo as well.
    Ambassador Currie. Sure. China does provide a substantial 
number of arms to Burma, but actually Russia is a bigger arms 
supplier to the Tatmadaw than China and has--so actually that 
is the basis under which people believe that Russia would veto 
a Security Council resolution is because of their arms sales 
interests with Burma, that they would not do it on their own if 
China were to abstain. That is kind of the thinking about this.
    The reason that the Chinese have threatened to veto on 
Burma is because they see this as an internal affair, and China 
is very rigid about--well, they are very hypocritical but very 
rigid in saying that the Security Council should not be 
involved in matters that are the internal affairs of countries.
    As you point out, though, or as Tom pointed out correctly, 
this is now a matter of international peace and security, and 
coups have been recognized by the Security Council in the past 
as matters of international peace and security.
    So there is full justification for the Security Council to 
act here. China is acting in a very narrowly interested way. 
However, their business interests go far beyond the military. 
It is part of the Belt and Road, and this has really become 
tied up in Xi Jinping's personal prestige.
    The situation of the China-Myanmar Economic Corridor is 
part of the Belt and Road and is a key link to the Indian Ocean 
through the Bay of Bengal.
    And there are serious security interests here. When these 
projects have been taking place within the past 4 years, past 5 
years, of the NLD Government, China has relied on the NLD to 
provide cover and Aung San Suu Kyi to provide cover for its 
economic exploitative projects in Burma.
    Without her there, these projects become much more tenuous, 
and they will continue to invoke public antipathy and protests. 
And just as you have seen the people fighting against the 
military junta through noncooperation, they have also 
threatened the viability of Chinese projects in Myanmar if this 
junta continues.
    So there are a lot of pieces here that I do not think we 
should assume a Chinese veto because they do have interest in 
not having this coup continue and, certainly, in having--not 
having the Burmese people despise them, which is what would 
happen if they were to veto a resolution in the Security 
Council.
    Senator Markey. Do you agree with that? Do you agree with 
that, Tom?
    Mr. Andrews. Yes, I think China has a lot of interest in 
moving this forward. I think that the anti-Chinese views and 
feelings among the people of Myanmar is--it is dangerous and it 
is not in the interest of China or, really, Russia to stand in 
the way of the Security Council moving forward and I, 
certainly, hope they will not stand in the way.
    Senator Markey. Thanks to both of you.
    Senator Romney?
    Senator Romney. Thank you, Mr. Chairman. I have asked my 
questions and appreciate the testimony that we have heard from 
both the Congressman and the Ambassador. Thank you.
    Senator Markey. Beautiful. Senator Merkley, do you have any 
other questions?
    Senator Merkley. Yes, thank you. I just wanted to ask, do 
you feel our failure to mount an aggressive response to the 
attack on the Rohingya contributed to the military thinking 
that they could get away with this type of military coup, 
restoration of military power?
    Ambassador Currie. Unquestionably, yes.
    Senator Merkley. I see, Tom, you are shaking your head yes 
as well.
    Mr. Andrews. Yes. Yes, Senator, I think yes. I think that 
there is a lot of lessons that need to be learned here and one 
of them is, is that the United States, the world, has to work 
together forcefully, aggressively, and creatively to address 
these just massive violations of human rights injustice and, 
certainly, that existed in 2017, needless to say. But it is 
before our very eyes right now. So this is happening just 
before our eyes. We need to take strong action.
    Senator Merkley. You know, I think it sends a message not 
only to the military in Burma but to would-be dictators around 
the world that there was space for them to become more 
authoritarian, and that is why responding to the situations 
when they arise.
    It is so important to be consistent and aggressive and 
firm, for people to know in advance there are going to be 
substantial world consequences to such actions.
    Well, I do not have any more questions for you all now. But 
I really want to thank you all for the insights you have 
brought to the committee, for your advocacy, and I hope we can 
really help turn the world back in the direction of governments 
that work for the people from a citizen-up strategy rather than 
an authoritarian-down strategy that China is championing.
    Thank you all very much.
    Mr. Andrews. Thank you, Senator.
    Ambassador Currie. Thank you.
    Senator Markey. Thank you. Thank you to all the senators. 
Thank you, Senator Romney, for our first hearing. It will be 
one of many we have on East Asia Subcommittee here.
    But we just call it the China subcommittee as it affects 
everyone else in East Asia and, unfortunately, it is, in most 
instances, negatively.
    This is the first of our hearings. There will be many more, 
and we thank our great witnesses today. From beginning to end, 
you have been extremely helpful to us.
    And for the information of the members, the record will 
remain open until the close of business on Monday, March 29th, 
including for members to submit questions for the record.
    So this hearing is now adjourned with the thanks of the 
subcommittee. Thank you.
    Mr. Andrews. Thank you, Mr. Chairman.
    [Whereupon, at 11:44 a.m., the subcommittee was adjourned.]

                                  <all>
</pre></body></html>
